<html>
<title> - GAO REPORTS RELATING TO BROADBAND INTERNET AVAILABILITY ON TRIBAL LANDS</title>
<body><pre>[Senate Hearing 115-423]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-423
 
GAO REPORTS RELATING TO BROADBAND INTERNET AVAILABILITY ON TRIBAL LANDS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 3, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 

          
                              

                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
34-056 PDF                   WASHINGTON : 2019               
         
         
         


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas                  TINA SMITH, Minnesota
JON KYL, Arizona
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 3, 2018..................................     1
Statement of Senator Cantwell....................................     4
Statement of Senator Daines......................................     3
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................    34
Statement of Senator Schatz......................................    29
Statement of Senator Udall.......................................     2

                               Witnesses

Blackwell, Geoffrey C., Chief Strategy Officer/General Counsel, 
  Amerind Risk Management Corporation............................    19
    Prepared statement...........................................    21
Enjady, Godfrey, President, National Tribal Telecommunications 
  Association....................................................    16
    Prepared statement...........................................    17
Goldstein, Mark, Director, Physical Infrastructure Issues, U.S. 
  Government Accountability Office...............................     5
    Prepared statement...........................................     6
Webre, Patrick, Chief, Consumer and Government Affairs Bureau, 
  Federal Communications Commission..............................    11
    Prepared statement...........................................    13

                                Appendix

Ferree, Thomas W., Chairman/CEO, Connected Nation , prepared 
  statement......................................................    43
Response to written questions submitted by Hon. Catherine Cortez 
  Masto to:
    Geoffrey C. Blackwell........................................    48
    Mark Goldstein...............................................    57
    Patrick Webre................................................    55
Response to written questions submitted by Hon. Tom Udall to:
    Geoffrey C. Blackwell........................................    46
    Mark Goldstein...............................................    56
    Patrick Webre................................................    54


GAO REPORTS RELATING TO BROADBAND INTERNET AVAILABILITY ON TRIBAL LANDS

                              ----------                              


                       WEDNESDAY, OCTOBER 3, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:51 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. I call this oversight hearing 
to order. We do have a vote at 3:30, and what we will plan to 
do is just kind of work through that. So we will keep going, or 
at least at this point we plan to keep going until we're 
completed, and then we will just hand off the gavel so that we 
can continue the hearing.
    Today we will examine two of the three reports from the 
U.S. Government Accountability Office that address broadband 
internet and other telecommunications access issues on tribal 
lands. All three GAO reports are in response to a July 2016 
letter from Senators Barrasso, McCain, Daines, Schatz, Tester, 
Cantwell, Heitkamp and Heinrich.
    The first report, released September 7th, 2018, is entitled 
Broadband Internet: FCC's Data Overstates Access on Tribal 
Lands. Among other recommendations in this report, the GAO 
recommended the FCC improve data collection methods to more 
accurately measure broadband access on tribal lands.
    The second report, released on September 28th, 2018, is 
entitled Tribal Broadband: Few Partnerships Exist and the Rural 
Utilities Service Needs to Identify and Address Any Funding 
Barriers Tribes Face. In this report, GAO recommends that the 
Rural Utilities Services, RUS, within the U.S. Department of 
Agriculture, identify and address regulatory barriers that 
impede tribal entities from obtaining Rural Utilities Service 
funding for broadband deployment.
    The third report, not addressed today, will involve 
research and information regarding the acquisition of spectrum 
by Indian tribes. I look forward to its release.
    As the Committee is aware, access to broadband 
communications furthers economic development, educational 
opportunities and public health and safety. Unfortunately, 
broadband access is lower on tribal lands than in any other 
part of the United States. According to the Federal 
Communications Commission, as of December 2016, 35.4 percent of 
tribal residents lacked access to fixed broadband services, 
compared to 7.7 percent for the rest of the U.S. population. We 
must work to ensure that tribes have equal access to high-speed 
internet and other advanced telecommunications infrastructure. 
We look forward to exploring ways in which Congress may help 
close the digital divide between Indian Country and the rest of 
the Nation.
    With that, I want to welcome our witnesses. Thank you for 
being with us this afternoon and for your willingness to 
testify. With that, I will turn to Vice Chairman Udall for his 
opening comments.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for calling this 
hearing today on the very important topic of the digital divide 
in Indian Country. I want to thank all the witnesses for being 
here and introduce two of them that are on the panel today.
    Described by many as the cyber warrior, Geoff Blackwell was 
the first tribal member to work at the Federal Communications 
Commission. He now works with Indian tribes across the Country 
to secure Federal funding for broadband projects.
    I am also pleased to welcome Mr. Godfrey Enjady, from 
Mescalero Apache. He will also testify before the Senate 
Commerce Committee tomorrow about tribal broadband. Godfrey's 
tireless work ethic is on display here in the Senate, and is 
exactly why we have been so successful in tackling the digital 
divide back home in New Mexico.
    Back home, that digital divide is something tribal 
communities know all too well. Eighty percent of those living 
on tribal lands in New Mexico do not have access to broadband. 
Just think about that for a moment. Four out of five people 
without broadband access, without access to a tool that is now 
a basic necessity for school, for health care, for economic 
development and for public safety.
    The findings of the Government Accountability Office are 
troubling. They suggest that the chasm between those with 
internet and those without may actually be even larger than 
previously reported. Without good, reliable and verifiable 
data, the FCC and the Rural Utilities Service are just flying 
blind. Bad data makes for bad decisions and there are tens of 
billions of Federal dollars at stake for tribal communities.
    I am concerned that much of this bad data results from a 
failure to include Indian tribes in the process. I have said it 
before and I will say it again, tribal consultation is not just 
a check the box exercise. Tribal consultation is about 
government-to-government relationships, but consultation is 
also about good governance. Robust consultation where the FCC 
doesn't just show up and listen, but actually learns from 
tribes, will make for better data, better decisions and better 
outcomes for everyone.
    For example, in New Mexico, the Pueblo of Pojoaque, Santa 
Clara Pueblo, Tesuque Pueblo and Ohkay Owingeh joined together 
to form REDINet, a community-owned broadband network. With 
Federal grant funds, they were able to deploy 136 miles of 
fiber optic cables. That means that folks in the area can now 
connect in life-changing ways, from telemedicine to distance 
learning. It also means first responders have the necessary 
communications equipment, a potentially life-saving difference. 
Despite the progress in some parts of Indian Country, GAO 
reports that the FCC and the RUS must do far more to get 
funding to tribes for shovel-ready projects.
    We now have four reports from the GAO on this topic, and 
another on the way. That is going to be five reports in a 
little over ten years. During that time, the FCC and the RUS 
sent to Indian tribes only 0.7 percent of their total Federal 
funds available. You heard those numbers right: a little less 
than $241 million of $34.6 billion made available.
    While these GAO reports are extremely helpful, I urge my 
colleagues not to fall prey to paralysis by analysis. We know 
there is a digital divide. Whether it is 80 percent of the 
tribal population or 40 percent of the population left without 
broadband access, it is wholly unacceptable in this day and age 
when the internet is an absolute necessity.
    Now is the time to do something. I hope this hearing serves 
as a call to action and an opportunity to find out about what 
we can actually do today to start taking steps to close this 
divide.
    Thank you, Mr. Chairman.
    The Chairman. Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Mr. Chairman, thank you.
    High-speed internet is essential to any economy or 
community looking to succeed in the 21st century. I spent 12 
years in the technology sector in Montana. I clearly see how 
technology removes geography as a constraint.
    Unfortunately, the GAO reports we are looking at today, 
which, as the Chairman referenced, a bi-partisan group of my 
colleagues and I, asked for detailed significant barriers to 
tribes' access to broadband and the need for the Federal 
Government to work with tribes more closely to change that 
reality. One report finds that the Federal Communications 
Commission continues to lack accurate data on broadband 
availability on tribal lands, which we know has been a 
longstanding challenge.
    To tribes' detriment, and as the report notes, the FCC's 
over-statements of access limit the agency and tribes' ability 
to target broadband funding to undeserved areas. So not only 
are tribal lands some of the most in need of better access to 
high-speed internet service, it's like adding insult to injury 
here, but the Federal Government's lack of accurate data about 
availability further impedes broadband deployment on tribal 
lands. This just becomes a self-perpetuating cycle.
    Lack of broadband service also hinders economic growth. It 
has the potential to create safety hazards. Anybody who lives 
out in Montana and other rural areas knows this. You get out 
your phone, you need to make an emergency, like a 911 call, and 
you can't get a signal. Especially for tribes in the far 
reaches of our State, where many of them currently live. For 
example, during last year's crippling snowstorms, it was 
difficult at times to get in contact with tribal elders at Fort 
Belknap who were snowed in.
    Broadband is also essential to other key aspects of civic 
life on and off Indian lands, including health care, education, 
two other areas where tribes need support, rather than 
continued obstacles. I know the FCC has been working on 
improving this arena, as Mr. Webre is going to discuss in his 
testimony. I thank the agency for some of its recent steps that 
are heading in the right direction.
    I would urge the FCC to continue its efforts to work more 
closely with tribes. If they want to be heard, sit down at the 
table, have back and forth conversations, so that we more 
accurately reflect broadband availability in tribal lands, 
especially in Montana. And more practically, to work more 
closely with tribes to support broadband deployment where it is 
needed most.
    Thank you, Mr. Chairman.
    The Chairman. Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I too want to 
thank you for holding the hearing, and the fact that our 
colleagues sent this letter requesting these reports are so 
important to us. I know we are going to hear from our witnesses 
that the GAO report includes that tribal land in its coverages, 
inaccurate and incomplete, and that we need to do more about 
the affordability of services.
    We have had our own experience being successful at actually 
delivering broadband to Neah Bay to the Makah Tribe, and 
working together in partnership with various resources to do 
that. The fact that we were able to partner with existing 
resources I think shows the fact that a lot of coordination is 
needed if we are going to pull off access in some of these 
areas.
    So the fact that the report on broadband land reports 
locations where providers could potentially provide service but 
aren't, I think we need to get this data and information to 
understand the difference between those. And that the GAO 
criticizes the FCC for not having a process to obtain formal, 
specific input, as my colleague from New Mexico mentioned, is 
also important.
    These are government-to-government relations. And we need 
to honor them. It is one of the reasons I will be drafting a 
broadband bill on Indian Country, specifically updating the 
Communications Act to clarify that the FCC's mandate to promote 
universal service in the advanced communications across the 
Nation includes tribal lands. It will also include other 
provisions.
    Thank you, Mr. Chairman, for this hearing today.
    The Chairman. Thank you, Senator Cantwell.
    Are there any other opening statements? All right, hearing 
none, we will proceed with our witnesses.
    First, we have Mr. Mark Goldstein, Director, the Government 
Accountability Office, Washington, D.C., then we will hear from 
Mr. Patrick Webre, who is the Chief of Consumer and 
Governmental Affairs Bureau, Federal Communications Commission. 
Then Mr. Godfrey Enjady, President, National Tribal 
Telecommunications Association, Mescalero, New Mexico, and then 
Mr. Geoffrey Blackwell, Chief Strategy Officer and General 
Counsel, Amerind Risk, Santa Ana Pueblo, New Mexico.
    I want to remind witnesses that your full written testimony 
will be made part of the official hearing record, so if you 
will please keep your opening statements to five minutes so 
that we have time for questions. We will start with you, Mr. 
Goldstein.

        STATEMENT OF MARK GOLDSTEIN, DIRECTOR, PHYSICAL 
            INFRASTRUCTURE ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Goldstein. Mr. Chairman, and members of the Committee, 
good afternoon and thank you for the opportunity to discuss 
GAO's recent work on issues related to tribal 
telecommunications.
    In September, 2018, GAO issued two reports examining 
challenges regarding broadband access on tribal lands. GAO 
examined broadband data mapping issues as well as partnerships 
and Federal funding issues. My testimony today is based on our 
issued reports.
    GAO's findings are as follows: The FCC collects data on 
broadband availability from providers. But these data do not 
accurately capture broadband access on tribal lands. 
Specifically, FCC collects data on broadband availability. 
These data capture where providers may have broadband 
infrastructure. However, FCC considers broadband to be 
available for an entire census block if the provider could 
serve at least one location in the census block. This leads to 
over-statements of service for specific locations like tribal 
lands.
    FCC, tribal stakeholders and providers have noted that this 
approach leads to overstatements of broadband availability. 
Because FCC uses these data to measure broadband access, it 
also overstates broadband access, the ability to obtain service 
on tribal lands.
    Additionally, FCC does not collect information on several 
factors such as affordability, quality and denials of service 
that FCC and tribal stakeholders stated can affect the extent 
to which Americans living on tribal lands can access broadband 
services. Overstatements of access limit efforts to target 
broadband funding and some tribal officials stated that 
inaccurate data have affected their ability to plan broadband 
networks, and obtain funding to address broadband gaps.
    Third, FCC does not have a formal process to obtain tribal 
input on the accuracy of broadband data. About half of the 
tribal stakeholders GAO interviewed raised concerns that FCC 
relies solely on data from providers, and most stated that FCC 
should work with tribes to improve the data accuracy.
    GAO identified some partnership arrangements between tribes 
and other entities to increase broadband access on tribal 
lands. Among the seven examples GAO identified, tribes 
partnered with different types of entities, including private 
broadband providers, a community access network provider, an 
electric cooperative, a regional consortium, and tribally-owned 
broadband providers. Almost all the partnerships improved 
broadband service on tribal lands.
    FCC and the Rural Utilities Service are the primary sources 
of Federal funding to deploy broadband infrastructure where the 
cost of providing service is high, including on tribal lands. 
GAO reviewed funding for four programs, three in FCC and one 
grant program in RUS, and found that in total less than 1 
percent has gone directly to tribes or tribally-owned broadband 
providers. GAO found that only 14 tribal entities received 
Federal funding from FCC and RUS to increase broadband 
deployment from 2010 to 2017.
    Finally, GAO noted several barriers that the tribes face in 
obtaining Federal funding for broadband. Tribes face regulatory 
barriers in applying for RUS grant funding, including preparing 
existing proposed network designs, demonstrating financial 
sustainability of the broadband project within five years, and 
obtaining matching funds. Although RUS conducts some outreach 
with tribes, it has not undertaken a formal assessment to 
identify and address the regulatory barriers that tribes may 
face in obtaining funds for broadband.
    GAO made several recommendations to the FCC regarding 
broadband data mapping and a recommendation to RUS regarding 
challenges that tribes face in obtaining Federal funds to 
support broadband for unserved areas.
    Mr. Chairman, this completes my oral statement. I am happy 
to respond to questions from the Committee. Thank you.
    [The prepared statement of Mr. Goldstein follows:]

Prepared Statement of Mark Goldstein, Director, Physical Infrastructure 
             Issues, U.S. Government Accountability Office
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee:
    I am pleased to be here today to discuss our September 2018 reports 
on the Federal Communications Commission's (FCC) data regarding 
broadband access on tribal lands \1\ and barriers tribes face in 
obtaining federal funding for broadband deployment. \2\ Broadband 
infrastructure is critical for economic development, educational and 
job opportunities, and public health and safety. \3\ However, residents 
of tribal lands continue to have lower levels of broadband access than 
other Americans. \4\
---------------------------------------------------------------------------
    \1\ GAO, Broadband Internet: FCC's Data Overstate Access on Tribal 
Lands, GAO-18-630 (Washington D.C.: Sept. 7, 2018).
    \2\ GAO, Tribal Broadband: Few Partnerships Exist and the Rural 
Utilities Service Needs to Identify and Address Any Funding Barriers 
Tribes Face, GAO-18-682 (Washington D.C.: Sept. 28, 2018). GAO also has 
ongoing work related to spectrum use on tribal lands for this 
Committee, which will be issued later in 2018.
    \3\ Broadband service may be ``fixed''--that is, providing service 
to a single location, such as a customer's home--or ``mobile,'' that 
is, providing service wherever a customer has access to a mobile 
wireless network, including while on the move, through a mobile device, 
such as a smartphone.
    \4\ For the purposes of this testimony, we use the definition of 
``tribal lands'' from FCC's 2018 Broadband Deployment Report. That 
report uses the following definition of tribal lands: (1) Joint Use 
Areas; (2) legal federally recognized American Indian area consisting 
of reservation and associated off-reservation trust land; (3) legal 
federally recognized American Indian area consisting of reservation 
only; (4) legal federally recognized American Indian area consisting of 
off-reservation trust land only; (5) Statistical American Indian area 
defined for a federally recognized tribe that does not have reservation 
or off-reservation trust land, specifically a Tribal Designated 
Statistical Area (TDSA) or Oklahoma Tribal Statistical Area (OTSA); (6) 
Alaskan Native village statistical area; and (7) Hawaiian Home Lands 
established by the Hawaiian Homes Commission Act of 1921. See 33 FCC 
Rcd 1660 (2018).
---------------------------------------------------------------------------
    Policy-makers have noted the need for accurate information in order 
to target funding to areas lacking broadband access, and FCC has 
identified the need to work with tribes to ensure such information is 
accurate for tribal lands. Currently, the primary source of information 
regarding where broadband is and is not available is the FCC, which 
collects this information from broadband providers. FCC collects this 
data by requiring that fixed and mobile broadband providers report on 
their broadband deployment by filing a form twice a year (Form 477). 
FCC uses data from this form to determine which areas qualify for 
broadband funding.
    One barrier to increasing access to broadband on tribal lands is 
the cost to providers of deploying infrastructure to tribal lands 
located in rugged, sparsely populated areas. In an attempt to address 
this and other issues, the federal government administers a number of 
programs to subsidize broadband deployment in areas in which the return 
on investment has not attracted private investment. For example, FCC 
administers the Connect America Fund-a Universal Service Fund program-
which provides subsidies to fixed and mobile providers of 
telecommunications and broadband services in rural, insular, and other 
remote areas where the cost of providing service is high. To be 
eligible to receive subsidies under the Connect America Fund, a 
provider must be designated an eligible telecommunications carrier. In 
addition, the Rural Utilities Service (RUS) has a current program and 
had a prior program and the National Telecommunications and Information 
Administration (NTIA) had a prior program that provided funding to 
improve broadband service in unserved or underserved areas. \5\ The RUS 
and NTIA prior programs were authorized by the American Recovery and 
Reinvestment Act of 2009 (Recovery Act) to expand high-speed Internet 
service in unserved areas, and there is no current funding for these 
programs. \6\
---------------------------------------------------------------------------
    \5\ Other federal programs can also be used to fund broadband 
deployment, including additional RUS programs. A list of funding 
resources is available at: https://broadbandusa.ntia.doc.gov/funding-
list.
    \6\ American Recovery and Reinvestment Act of 2009, Pub. L. No. 
111-5, 123 Stat. 115, 118-119 (2009).
---------------------------------------------------------------------------
    My statement today discusses: (1) the extent to which FCC's 
approach to collecting broadband availability data accurately captures 
the ability of Americans living on tribal lands to access broadband 
Internet services; (2) the extent to which FCC obtains tribal input on 
the data; (3) examples of partnership arrangements that tribal entities 
have used to increase broadband deployment on tribal lands; and (4) 
barriers that tribal entities face in obtaining federal funding for 
broadband deployment. This statement is based on two reports that we 
issued in September 2018. \7\ To perform the work for our report on 
FCC's broadband data, we analyzed FCC's broadband availability data for 
tribal lands as well as FCC's processes for collecting and using those 
data. We interviewed FCC officials as well as a non-generalizable 
sample of tribal and industry stakeholders and reviewed relevant FCC 
rulemaking proceedings. \8\ To perform the work for our report on 
tribal partnerships and barriers to federal funding, we reviewed 
program documentation from FCC, RUS, and NTIA. We also interviewed FCC, 
RUS, and NTIA officials and a non-generalizable sample of 
representatives from tribal governments, tribally owned broadband 
providers, and tribal associations. More detailed information about our 
scope and methodology can be found in our reports.
---------------------------------------------------------------------------
    \7\ GAO-18-630 and GAO-18-682.
    \8\ These interviews included representatives from 25 tribal 
governments or tribally owned providers, including visits to 9 tribal 
lands, and 10 organizations that include tribal entities or work with 
tribes on broadband issues.
---------------------------------------------------------------------------
    The work upon which this testimony is based was conducted in 
accordance with generally accepted government auditing standards.
FCC's Data Overstate Broadband Access on Tribal Lands
    In our September 2018 report on broadband access on tribal lands, 
we found that FCC collects broadband availability data from broadband 
providers, but its method for collecting the data does not accurately 
or completely capture broadband access--the ability to obtain service--
on tribal lands. \9\ Specifically, FCC directs fixed broadband 
providers to submit a list of census blocks where service is available 
on their Form 477 filings. In the Form 477 instructions, FCC defines 
``available'' \10\ as whether the provider does--or could, within a 
typical service interval or without an extraordinary commitment of 
resources--provide service to at least one end-user premises in a 
census block. \11\ Thus, in its annual reports and maps of fixed 
broadband service, FCC considers an entire block to be served if a 
provider reports that it does, or could offer, service to at least one 
household in the census block. As shown in figure 1, FCC's definition 
of availability leads to overstatements of fixed broadband availability 
on tribal lands by: (1) counting an entire census block as served if 
only one location has broadband, and (2) allowing providers to report 
availability in blocks where they do not have any infrastructure 
connecting homes to their networks if the providers determine they 
could offer service to at least one household. FCC has noted that 
overstatements of availability can be particularly problematic in rural 
areas, where census blocks cover larger areas.
---------------------------------------------------------------------------
    \9\ GAO-18-630
    \10\ We use the term broadband availability to refer to broadband 
deployment. FCC officials noted that the data collected by the Form 477 
reflect broadband deployment. We use the term broadband availability 
because FCC's Form 477 instructs fixed broadband providers to report 
fixed broadband deployment by submitting a list of census blocks in 
which the filer makes broadband connections available.
    \11\ A ``typical service interval'' refers to the amount of time 
between when a customer requests service, and when a provider is able 
to begin providing service.

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    According to FCC officials, FCC requires providers to report fixed 
broadband availability where they could provide service to: (1) ensure 
that it captures instances in which a provider has a network nearby but 
has not installed the last connection to the homes, and (2) identify 
where service is connected to homes, but homes have not subscribed. FCC 
officials also told us that FCC measures availability at the census 
block level because sub-census block data may be costly to collect. 
However, FCC acknowledged that by requiring a provider to report where 
it could provide service, it is not possible to tell whether the 
provider would be unable or unwilling to take on additional subscribers 
in a census block it lists as served. \12\ In addition, when reporting 
on broadband access in tribal lands, \13\ FCC uses the broadband 
availability data described above, and does not collect information on 
factors that FCC and tribal stakeholders have stated can affect 
broadband access. \14\ These factors include affordability, service 
quality, and service denials.
---------------------------------------------------------------------------
    \12\ Modernizing the FCC Form 477 Data Program, Further Notice of 
Proposed Rulemaking, 32 FCC Rcd 6329 (2017).
    \13\ In the Matter of Inquiry Concerning the Deployment of Advanced 
Telecommunications Capability to All Americans in a Reasonable and 
Timely Fashion, 2018 Broadband Deployment Report, 33 FCC Rcd 1660 
(2018).
    \14\ FCC officials we interviewed stated that FCC has not defined 
the term ``broadband access,'' and noted that the use of the term may 
vary across FCC documents. However, FCC and tribal stakeholders have 
noted that broadband access can be affected by factors such as the 
affordability and quality of the broadband services being offered and 
the extent to which providers deny service to those who request it. For 
example, see 2016 Broadband Progress Report 31 FCC Rcd 699  62 (2016); 
FCC, National Broadband Plan; FCC, Strategic Plan 2018-2022. FCC 
officials also identified the cost of deployment and regulatory 
barriers as important factors when determining whether an area has 
access to broadband.
---------------------------------------------------------------------------
    By developing and implementing methods for collecting and reporting 
accurate and complete data on broadband access specific to tribal 
lands, FCC would be better able to target federal broadband funding to 
tribal areas that need it the most. We recommended FCC develop and 
implement methods for collecting and reporting accurate and complete 
data on broadband access specific to tribal lands. FCC agreed with this 
recommendation and stated that it is exploring methods to collect more 
granular broadband deployment data.
FCC Does Not Have a Formal Process to Obtain Tribal Input on its 
        Broadband Data
    As we reported in September 2018, FCC does not have a formal 
process to obtain input from tribes on the accuracy of the data and 
tribal stakeholders can face difficulties obtaining information from 
providers. \15\ FCC's 2010 National Broadband Plan noted the need for 
the federal government to improve the quality of data regarding 
broadband on tribal lands and recommended that FCC work with tribes to 
ensure that any information collected is accurate and useful. \16\ 
Although the Plan also noted that tribal representatives should have 
the opportunity to review mapping data and offer supplemental data or 
corrections, FCC lacks a formal process to obtain tribal input on its 
broadband data. FCC officials told us that they address questions and 
concerns regarding providers' coverage claims submitted to FCC's Office 
of Native Affairs and Policy. However, about half of the tribal 
representatives we spoke to stated that they were not aware of the Form 
477 data or corresponding maps, or raised concerns about a lack of 
outreach from FCC to inform tribes about the data. Most of the tribal 
stakeholders we interviewed told us that FCC should work more directly 
with tribes to obtain information from them to improve the accuracy of 
FCC's broadband deployment data for tribal lands. These stakeholders 
identified several ways in which FCC could work with tribes on this 
issue, including onsite visits, increased outreach and technical 
training, and opportunities for tribes to collect their own data or 
submit feedback regarding the accuracy of FCC's data.
---------------------------------------------------------------------------
    \15\ GAO-18-630.
    \16\ FCC, Connecting America: The National Broadband Plan (Mar. 16, 
2010).
---------------------------------------------------------------------------
    FCC's National Broadband Plan also noted the importance of 
supporting tribal efforts to build technical expertise with respect to 
broadband issues. A few of the stakeholders we interviewed noted that 
tribes have faced difficulties when they attempt to challenge FCC's 
broadband availability data. For example, in 2013, all of the tribal 
entities that challenged FCC's data on mobile service availability were 
unsuccessful in increasing the number of eligible areas. A few tribal 
stakeholders provided varying reasons for this, one of which was the 
need for more technical expertise to help the tribes meet FCC's 
requirements regarding the information needed to support a challenge. 
Because FCC lacks a formal process to obtain tribal input on its 
broadband data, FCC is missing an important source of information 
regarding areas in which the data may overstate broadband service on 
tribal lands.
    By establishing a process to obtain input from tribal governments 
on the accuracy of provider-submitted broadband data as recommended in 
the National Broadband Plan, FCC could help tribes develop and share 
locally-specific information on broadband access and improve FCC's data 
for tribal lands. However, the success of such an effort may rely on 
the tribes' knowledge of, and technical ability to participate in, the 
process. Thus, we recommended FCC develop a formal process to obtain 
tribal input on the accuracy of provider-submitted broadband data that 
includes outreach and technical assistance to help tribes participate 
in the process. FCC agreed with this recommendation and stated that it 
will work with stakeholders to explore options for implementing such a 
process.
    Finally, some tribes face challenges accessing data from providers. 
In 2011, FCC required that providers receiving funds to serve tribal 
lands meaningfully engage with the tribes and discuss broadband 
deployment planning. \17\ In 2012, FCC issued guidance on meeting this 
requirement and stated that the guidance would evolve over time based 
on the feedback of both tribal governments and broadband providers. 
\18\ However, FCC has taken limited steps to obtain such feedback and 
has not updated the guidance. About half of the tribal stakeholders we 
interviewed raised concerns about difficulties accessing information 
from providers regarding broadband deployment on their tribe's lands 
(which providers may consider proprietary), and some providers told us 
that they attempt to engage with tribes, but the level of 
responsiveness they receive from tribes varies. Thus, we recommended, 
and FCC agreed, that FCC obtain feedback from tribal stakeholders and 
providers to determine whether it needs to clarify its tribal 
engagement guidance.
---------------------------------------------------------------------------
    \17\ In the Matter of Connect America Fund, Report and Order and 
Further Notice of Proposed Rulemaking, 26 FCC Rcd 17663 (2011).
    \18\ Office of Native Affairs and Policy, Wireless 
Telecommunications Bureau, and Wireline Competition Bureau Issue 
Further Guidance on Tribal Government Engagement Obligation Provisions 
of the Connect America Fund, Public Notice, 27 FCC Rcd 8176 (2012).
---------------------------------------------------------------------------
Few Tribal Broadband Partnerships Exist
    In our September 2018 report on tribal partnerships, we found that 
partnership arrangements between tribes and other entities to increase 
broadband deployment on tribal lands are not widespread. \19\ Because 
of the greater costs associated with deploying broadband on unserved 
tribal lands that are generally rural, with possibly rugged terrain, 
there may be little to no private sector incentive to deploy broadband 
or enter into a partnership arrangement to do so. The partnership 
examples we identified were ones that obtained federal funding under 
past programs funded by the Recovery Act. Among these examples, tribes 
partnered with several different types of entities, including private 
providers, a community access network provider, an electric 
cooperative, a regional consortium, and tribally owned providers.
---------------------------------------------------------------------------
    \19\ GAO-18-682.
---------------------------------------------------------------------------
Tribes Face Barriers to Obtain Federal Funding for Broadband Deployment
    We also reported in September 2018 that FCC and RUS are the primary 
sources of federal funding to deploy broadband infrastructure in rural 
and remote areas where the cost of providing service is high, including 
tribal lands. \20\ Based on our review of the funding provided by four 
federal programs targeted to increase deployment in unserved areas, 
very little has gone directly to tribes or to tribally owned broadband 
providers. Specifically, we found that from 2010 to 2017, less than 1 
percent of FCC funding and about 14 percent of RUS funding went 
directly to tribes and tribally owned providers. Combined, FCC and RUS 
funding totaled $34.6 billion during that time period and tribes and 
tribally owned providers received $235 million, or about 0.7 percent.
---------------------------------------------------------------------------
    \20\ GAO-18-682.
---------------------------------------------------------------------------
    FCC's 2010 National Broadband Plan stated that tribes needed 
substantially greater financial support than was available to them at 
the time and that accelerating tribal broadband deployment would 
require increased funding. Furthermore, the National Congress of 
American Indians expressed concerns that the needs for federally funded 
broadband projects are greater on tribal lands but tribes do not 
receive the appropriate share of federal funding aimed at increasing 
broadband deployment. \21\ Several of the tribes we visited told us 
they were trying to deploy broadband infrastructure or offer service 
because the private providers were not building out on their lands.
---------------------------------------------------------------------------
    \21\ According to its website, the National Congress of American 
Indians is the oldest, largest, and most representative American Indian 
and Alaska Native organization serving the broad interests of tribal 
governments and communities.
---------------------------------------------------------------------------
    Through our analysis, we found that from 2010 to 2017, 14 tribal 
entities received federal funding from FCC and RUS to increase 
broadband deployment (see fig. 2).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The tribal officials, tribal associations, and tribally owned 
broadband providers we interviewed cited several barriers that tribes 
may face when seeking federal funding for broadband deployment. The two 
primary barriers these interviewees cited were (1) the statutory 
requirement for the eligible telecommunications carrier (ETC) 
designation and (2) grant application requirements. Regarding the 
statutory requirement for ETC designation, FCC officials told us there 
were 11 tribes that have providers designated as ETCs and therefore 
would be eligible to receive support from FCC's Connect America Fund 
(CAF)--the largest source of federal funding for broadband deployment 
in unserved and underserved areas. Although FCC adopted rules in 2011 
to create CAF and modernize the program so that it could support 
broadband capable networks, FCC officials told us that most ETCs are 
the telephone companies that were in existence when the 
Telecommunications Act of 1996 was enacted into law. \22\ According to 
FCC officials, FCC has explored whether it has authority to allow non-
ETC providers to receive CAF support payments but determined that the 
statute is clear that only ETCs can receive program support. Between 
2012 and 2017, FCC officials said FCC received nine ETC applications, 
four of which were from tribally owned providers. Of those four, only 
one tribally owned provider was designated as an ETC.
---------------------------------------------------------------------------
    \22\ Telecommunications Act of 1996, Pub. L. No. 104-104,  706, 
110 Stat. 56, 153 (1996).
---------------------------------------------------------------------------
    According to representatives from a tribal association we 
contacted, FCC has provided ETCs with billions of dollars to deploy 
service to unserved areas, but FCC's efforts have not always been 
successful in the hardest to reach areas, particularly tribal lands. 
The representatives stated that FCC's competitive market approach does 
not work where competition cannot be supported and that there needs to 
be a different approach. Similarly, tribal officials from Idaho told us 
that although the provider in their area has received millions of 
dollars in CAF subsidies, it has not deployed broadband on the tribal 
lands. Other tribal officials from Idaho told us that although private 
providers received CAF subsidies to deploy broadband service to their 
reservation, the private providers told the tribe it would be years 
before they offer service on tribal lands.
    Additionally, the tribal officials, tribal associations, and 
tribally owned broadband providers we interviewed said tribes may face 
barriers completing federal grant applications to obtain funding for 
broadband deployment. For example, they said tribes face regulatory 
barriers in applying for RUS's grant funding, including preparing 
existing and proposed network design, demonstrating financial 
sustainability of the broadband project within 5 years, and obtaining 
matching funds.
    The National Broadband Plan recommended that federal agencies 
facilitate tribal access to broadband funding opportunities. 
Furthermore, recognizing the need to reduce barriers to expand 
broadband deployment, the Broadband Opportunity Council, established in 
March 2015, issued a memorandum stating that federal agencies should 
use all available and appropriate authorities to identify and address 
regulatory barriers that may unduly impede either broadband deployment 
or the infrastructure to augment broadband deployment. \23\ However, 
according to RUS officials, RUS has not taken steps to identify or 
address the barriers tribes face when applying for RUS grant funding 
due to limited resources and multiple competing priorities for those 
resources. We recommended that RUS identify any regulatory barriers 
that may unduly impede efforts by tribes to obtain RUS grant funds for 
broadband deployment on tribal lands and implement any steps necessary 
to address the identified barriers. By doing so, RUS could help tribes 
obtain funding to expand broadband deployment on tribal lands. RUS 
neither agreed nor disagreed with this recommendation.
---------------------------------------------------------------------------
    \23\ The Broadband Opportunity Council was tasked with producing 
specific recommendations to increase broadband deployment, competition, 
and adoption through executive actions within the scope of agency 
programs, mission, and budgets.
---------------------------------------------------------------------------
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
this completes my prepared statement. I would be pleased to respond to 
any questions that you may have.

    The Chairman. Thank you, Mr. Goldstein. Now we will hear 
from Mr. Webre.

  STATEMENT OF PATRICK WEBRE, CHIEF, CONSUMER AND GOVERNMENT 
                    AFFAIRS BUREAU, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. Webre. Thank you, Mr. Chairman.
    Chairman Hoeven, Vice Chairman Udall, and members of the 
Committee, thank you for the opportunity to testify today. I am 
Patrick Webre, Chief of the FCC's Consumer and Governmental 
Affairs Bureau, or CGB. CGB oversees the FCC's rulemaking 
efforts regarding consumer policy issues, including disability 
rights, and administers the FCC's consumer information, 
education and outreach programs.
    CGB also directs the FCC's collaborative partnerships with 
an outreach to State, local and tribal governments and 
organizations.
    In 2010, the Commission established the Office of Native 
Affairs and Policy, ONAP, within CGB, to develop and implement 
policies for assisting Native communities and to ensure that 
Native concerns and voices are considered in all relevant 
Commission proceedings and initiatives. ONAP was also created 
to address the troubling and persistent digital divide keeping 
residents on tribal lands from accessing the benefits of 
broadband.
    Establishment of ONAP within CGB has promoted 
administrative efficiencies, management oversight and synergies 
within the Bureau's intergovernmental responsibilities, while 
providing a home for dedicated Commission staff with 
specialized experience to serve as official Commission liaisons 
for ongoing consultation, engagement and outreach to American 
Indian, Alaska Native village, Hawaiian Homelands and other 
Native communities.
    Most importantly, the creation of ONAP has fostered 
Commission dialogue and robust engagement with tribes, tribal 
governments and inter-tribal organizations. It has furthered 
the Commission's trust relationship with tribal nations and 
demonstrated its ongoing commitment to its 2000 tribal policy 
statement.
    In 2018 alone, ONAP has facilitated over 90 forms of tribal 
outreach and engagement. Bringing the benefits of broadband to 
all Americans, and closing the digital divide, is the 
Commission's top priority. The digital divide is all too real, 
especially in Indian Country, with more than 35 percent of 
tribal residents lacking any access to fixed broadband.
    That is why the Commission has taking several recent steps 
to promote USF high-cost support to these areas most in need, 
so that they can enjoy the same benefits as Americans with 
broadband connectivity. The Commission has long recognized the 
vexing challenges associated with deploying broadband 
infrastructure and providing services on tribal lands, and 
believes that accurate, comprehensive data are vital to the 
Commission's efforts to bridge the digital divide. That is why 
the Commission has primarily relied on Form 477 data for a 
limited purpose: identifying the too-many census blocks where 
no internet service provider has deployed fixed broadband 
infrastructure, and thus the areas that unambiguously need 
Federal funding through the Connect American Fund to get 
broadband.
    The Commission is committed to helping those residents on 
tribal lands. Efforts are underway to ensure that we collect 
the best possible broadband data so that we can target support 
where it is needed most. First and foremost, to unserved areas, 
and next, to partially served areas. Chief among these is a 
rulemaking opened last year to explore ways to collect more 
granular data through Form 477 without unnecessarily burdening 
those deploying broadband on tribal lands who often have few 
resources to spare.
    The agency sought comment on many complex issues associate 
with revising its methodology. Staff are actively analyzing the 
various options for providing a more precise picture of 
broadband deployment on tribal lands. Relatedly, the Commission 
has also been charged by the Consolidated Appropriations Act of 
2018 to conduct an assessment and report on the availability of 
broadband services in Indian Country. The Commission is further 
directed to conduct a rulemaking to address the unserved areas 
identified in the report. We have begun work on that effort and 
will work with tribal officials and stakeholders to develop a 
clear picture of broadband deployment on tribal lands and 
address unserved areas.
    The Commission also believes that tribal input on the 
accuracy of provider-submitted data is important. The 
Commission has a formal challenge process in place, for 
example, regarding the Mobility Fund Two option that allows 
tribes to challenge the results of the initial data collection. 
While we also have informal processes in place, we agree, more 
can be done to obtain tribal feedback.
    To this end, earlier this year, the Commission announced 
the renewal of the Native Nations Communications Task Force, 
comprised of elected or appointed leaders from federally-
recognized tribal governments and senior Commission staff. The 
Commission is currently selecting tribal members and hopes to 
announce the membership in its first meeting shortly.
    Among other things, the task force would provide the 
Commission guidance on identifying barriers to broadband 
deployment unique to tribal lands. We also plan to task the 
task force to recommend a process for obtaining tribal input on 
provider-submitted broadband data, as well as assisting the 
Commission in gathering tribal feedback on the effectiveness of 
the Commission's tribal engagement guidance.
    Thank you again for this opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Webre follows:]

  Prepared Statement of Patrick Webre, Chief, Consumer and Government 
           Affairs Bureau, Federal Communications Commission
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
thank you for the opportunity to testify today about the recently 
released GAO report on the Federal Communication Commission's (FCC's) 
collection and reporting of broadband data for Tribal lands. I'm 
Patrick Webre, Chief of the FCC's Consumer and Governmental Affairs 
Bureau (CGB).
    Before addressing the report, I'd like to provide the Committee 
with a brief background on CGB and its work on Tribal matters. CGB 
oversees the FCC's rulemaking efforts regarding consumer policy issues, 
including disability rights, and administers the FCC's consumer 
information, education, and outreach programs to enhance the public's 
understanding of telecommunications matters and compliance with the 
FCC's regulatory requirements. CGB also directs the FCC's collaborative 
partnerships with and outreach to state, local, and Tribal governments 
and organizations. CGB further manages the agency's consumer 
complaints, inquiry processes, and call center operations.
    In 2010, the Commission established the Office of Native Affairs 
and Policy (ONAP) within CGB. In so doing, the Commission stated its 
expectation that ONAP would bring ``the benefits of a modern 
communications infrastructure to all Native communities by, among other 
things, ensuring robust government-to-government consultation with 
Federally-recognized Tribal governments and other Native organizations; 
working with Commissioners, Bureaus, and Offices, as well as with other 
governmental agencies and private organizations, to develop and 
implement policies for assisting Native communities; and ensuring that 
Native concerns and voices are considered in all relevant Commission 
proceedings and initiatives.'' \1\
---------------------------------------------------------------------------
    \1\ Establishment of the Office of Native Affairs and Policy in the 
Consumer and Governmental Affairs Bureau, Order, 25 FCC Rcd 11104 
(2010).
---------------------------------------------------------------------------
    Establishment of ONAP within CGB has promoted administrative 
efficiencies, management oversight, and synergies with the Bureau's 
intergovernmental responsibilities, while providing a home for 
dedicated Commission staff with specialized experience to serve as 
official Commission liaisons for ongoing consultation, engagement and 
outreach to the American Indian, Alaska Native Village, Hawaiian 
Homelands, and other Native communities. Most importantly, the creation 
of ONAP has fostered Commission dialogue and engagement with Tribes, 
Tribal governments, and inter-Tribal organizations, furthered the 
Commission's trust relationship with Tribal Nations, and demonstrated 
its ongoing commitment to its 2000 Tribal Policy Statement. \2\ In 2018 
alone, ONAP has already facilitated over 90 forms of Tribal outreach 
and engagement.
---------------------------------------------------------------------------
    \2\ Establishing a Government-to-Government Relationship with 
Indian Tribes, Policy Statement, 16 FCC Rcd 4078 (2000).
---------------------------------------------------------------------------
    Also this year, the FCC announced the renewal of the Native Nations 
Communications Task Force. The Task Force will be comprised of elected 
or appointed leaders from federally recognized Tribal governments and 
senior Commission staff. It is intended to provide the Commission 
guidance on such matters as identifying barriers to broadband 
deployment unique to Tribal lands and ensuring that Tribal concerns are 
considered in all Commission proceedings related to broadband and other 
Commission undertakings that affect Tribal interests. \3\ The 
Commission is currently selecting Tribal members and hopes to announce 
its membership and first meeting in the near future.
---------------------------------------------------------------------------
    \3\ Public Notice, FCC Seeks Nominations for Tribal Government 
Representatives to Serve on Renewed FCC Native Nations Communications 
Task Force (DA 18-127) (rel. Feb. 8, 2018).
---------------------------------------------------------------------------
    GAO Reports and FCC Response. The GAO released two reports on 
Tribal broadband last month. The first report, titled FCC's Data 
Overstate Access on Tribal Lands, examined the FCC's approach to 
collecting broadband availability data and obtaining Tribal input on 
the accuracy of that data for Tribal lands. This report, to which the 
FCC responded, contains three recommendations for the Commission, which 
I will address in this testimony. The GAO released a second report late 
last week entitled Few Partnerships Exist and the Rural Utilities 
Service Needs to Identify and Address Any Funding Barriers Tribes Face. 
That report examined the use of partnership arrangements between Tribal 
entities and other entities and contains a recommendation for the Rural 
Utilities Service. The second report has no recommendations for the 
Commission.
    Bringing the benefits of broadband to all Americans is the 
Commission's top priority. But that is not an easy task in many parts 
of this country, particularly Tribal lands. The Commission has long 
recognized the particular challenges associated with deploying 
broadband infrastructure and providing services on Tribal lands, and 
agrees with GAO that accurate, comprehensive data are vital to the 
Commission's efforts to bridge the digital divide, including on Tribal 
lands. The digital divide is all too real, especially in Indian 
Country. That is why the Commission has primarily relied on Form 477 
data for a limited purpose--identifying the too-many census blocks 
where ``no'' Internet service provider has deployed fixed broadband 
infrastructure, and thus the areas that unambiguously need federal 
funding through the Connect America Fund to get broadband. This divide 
is especially stark on Tribal lands, as GAO recognizes, with more than 
35 percent of Tribal residents lacking ``any'' access to fixed 
broadband.
    The Commission already has efforts underway to ensure that we 
collect the best possible data and is working to address each of the 
three recommendations advanced by the GAO.
    Methods to Collect and Report Data on Broadband Access to Specific 
Tribal Lands. GAO's first recommendation is that the FCC Chairman 
``develop and implement methods--such as targeted data collection--for 
collecting and reporting accurate and complete data on broadband access 
to specific tribal lands.'' The Commission agrees with the importance 
of having access to quality data and has efforts underway to enhance 
its understanding of unserved Tribal areas through better data. More 
granular data will be needed in the future. As our policies help 
deliver broadband to wholly unserved blocks, it will be more important 
to understand availability in partially served blocks.
    For this reason, the Commission last year opened a rulemaking on 
this issue \4\ and remains dedicated to moving forward with this 
proceeding, including exploring ways to collect more granular data 
without unnecessarily burdening those who are deploying on Tribal lands 
and often have few resources to spare. In that proceeding, the 
Commission sought comment on a wide variety of issues related to making 
the Form 477 collection as efficient and effective as possible. 
Recognizing the potential benefits of increasing the granularity of 
deployment data the Commission collects, the agency sought public input 
on many issues associated with revising its methodology. The Commission 
is currently analyzing the potential efficiencies, usefulness, and 
burdens associated with various options. If an appropriate method for 
such a collection can be identified, this may address many of the 
concerns GAO raises in its report by providing the Commission with a 
more precise picture of broadband deployment on Tribal lands.
---------------------------------------------------------------------------
    \4\ Modernizing the FCC Form 477 Data Program; Further Notice of 
Proposed Rulemaking; WC Docket 11-10 (2017).
---------------------------------------------------------------------------
    Also relevant to GAO's first recommendation is the requirement in 
the Consolidated Appropriations Act of 2018 that the Commission conduct 
an assessment regarding the availability of broadband services in 
Indian Country and report on the results by March 23, 2019. \5\ Based 
on the results of that assessment, the legislation directs the 
Commission to conduct a rulemaking proceeding to address the unserved 
areas identified in the report. We have begun work on that effort and 
will work with Tribal officials and stakeholders to develop a clear 
picture of broadband deployment on Tribal lands and address unserved 
areas.
---------------------------------------------------------------------------
    \5\ Consolidated Appropriations Act, 2018, H.R. 1625, 115th Cong., 
Division P, RAY BAUM'S Act,  508 (2018).
---------------------------------------------------------------------------
    Process to Obtain Tribal Input on Provider-Submitted Broadband 
Data. The report's second recommendation is that the Chairman of the 
FCC ``develop a process to obtain tribal input on the accuracy of 
provider-submitted broadband data that includes outreach and technical 
assistance to help tribes participate in the process.'' The Commission 
agrees that Tribal input on the accuracy of provider-submitted 
broadband data is important. Indeed, the FCC currently has in place a 
number of informal means by which Tribal officials and stakeholders can 
raise any concerns. For example, Tribal officials can, and do, raise 
concerns and questions about the data to the Commission's ONAP, which 
shares them with the relevant agency bureaus.
    In addition, the Commission has given Tribes a direct role in 
evaluating and challenging providers' claims of service coverage in the 
ongoing Mobility Fund Phase II (MF-II) proceeding. ONAP and the 
Commission's Rural Broadband Auctions Task Force have cooperated on a 
number of initiatives to make Tribal leaders and others aware of the 
challenge process for the Mobility Fund II auction eligible areas and 
the importance of participating in that process. These efforts have 
included sending information in emails to the leaders and IT managers 
of all 573 federally recognized Tribes; conducting outreach, including 
conference calls and webinars open to all Tribes; formal presentations 
at multiple inter-Tribal conferences around the country; and a session 
at a July 31 Tribal workshop conducted at the Lac du Flambeau 
Reservation in Wisconsin that was open to all Tribes.
    The Commission agrees that, in addition to these mechanisms, 
implementing a formal process for continuing Tribal engagement could 
have significant value in helping the FCC understand both the extent 
of, and the specific issues that drive or hinder, broadband deployment 
on Tribal lands. We plan on tasking the Native Nations Communications 
Task Force with recommending a process on this very issue. Our efforts 
to improve Tribal engagement will include doing even more to help 
Tribes participate in existing processes, through technical and other 
outreach, as well as looking for additional avenues and methods for 
receiving Tribal input on deployment issues.
    Feedback from Tribal Officials and Providers on Providers' Tribal 
Engagement Requirements. Finally, the report recommends that the FCC 
Chairman ``obtain feedback from tribal stakeholders and providers on 
the effectiveness of the FCC's 2012 statement to providers on how to 
fulfill their tribal engagement requirements to determine whether the 
Commission needs to clarify its tribal engagement statement.'' We agree 
that seeking additional feedback on the overall effectiveness of the 
2012 Tribal Engagement Further Guidance Public Notice is desirable.
    We note that ONAP solicits and receives feedback from Tribes on 
whether and how providers are fulfilling the requirements of the rule, 
the effectiveness of the Commission's guidance, and any problems 
encountered in the engagement process. ONAP regularly includes 
presentations on the Tribal engagement obligation at its Tribal 
workshops, which it conducts at different locations around the country 
throughout the year. Additionally, ONAP solicits and receives feedback 
on the engagement requirements from Tribes and other participants at 
inter-Tribal conferences and similar events. As a result of feedback 
concerning the availability of compliance reporting, the Commission has 
made changes to its filing requirements, and Tribal Nations will soon 
be able to obtain providers' reports on their Tribal engagement efforts 
directly through a Universal Service Administrative Company online 
portal. We will continue to seek additional informal and formal 
feedback from Tribal officials, as well as feedback from providers, 
regarding the effectiveness of the guidance provided by the Commission 
thus far on how providers may fulfill their Tribal engagement 
requirements. We also plan on asking the Native Nations Communications 
Task Force to assist the Commission in gathering Tribal feedback.
    In addition to these efforts, the Commission has been taking other 
important actions to help bring broadband to Tribal lands. In August, 
the Commission concluded the Connect America Phase II auction to 
allocate support for fixed broadband deployment to certain eligible 
rural areas across the United States. Our preliminary review shows that 
about 80,000 winning locations are in Tribal areas. In addition, we are 
currently planning for the Tribal Mobility Fund II auction, in which a 
portion of the Mobility Fund Phase II auction's $4.5 billion budget 
will be dedicated to funding mobile coverage in Tribal lands. And 
earlier this year, in recognition of the unique challenges carriers on 
Tribal lands face, the Commission raised the limits on operational 
expenditures for carriers serving these areas. It is also my 
understanding that staff is considering a petition for reconsideration 
from Mescalero Apache Telecom, Inc. related to this action which, if 
granted, would bring even more support to Tribal areas.
    Chairman Hoeven, Vice Chairman Udall, and the Members of the 
Committee, thank you once again for the opportunity to testify this 
afternoon, and I look forward to the opportunity to answer your 
questions.

    The Chairman. Thank you, Mr. Webre. Mr. Enjady?

    STATEMENT OF GODFREY ENJADY, PRESIDENT, NATIONAL TRIBAL 
                 TELECOMMUNICATIONS ASSOCIATION

    Mr. Enjady. Thank you, Chairman Hoeven and Ranking Member 
Udall, and members of the Committee. Thank you very much for 
this opportunity to testify to you today.
    I am Godfrey Enjady, General Manager of the Mescalero 
Apache Telecom, Incorporated, MATI, located in Mescalero, New 
Mexico. Today I testify as the President of the National Tribal 
Telecommunications Association, NTTA, which is comprised of 
nine tribally-owned and operated telecommunications companies 
that provide voice, broadband and other communications services 
to their communities.
    Members of NTTA represent only a small portion of the 573 
tribes recognized by the Federal Government today. While areas 
served by NTTA members may have better broadband access than 
much of Indian Country, we agree with the study's conclusion 
that a vast majority of the tribal areas are lacking in or 
overstating broadband coverage.
    NTTA members provide services in what is considered rural 
and high-cost. This situation causes the average cost permit to 
substantially exceed the national average.
    NTTA members have a high percentage of its consumer base 
that qualifies for a life-long program, a very important 
element in affordability and adoption of broadband services. We 
support the adoption of an enhanced Lifeline credit for Native 
communities.
    The difficulties in serving remote, dispersed communities 
situated in hard to serve, tough terrain areas has been 
thoroughly highlighted in Congressional testimony and on the 
record at the FCC and RUS. They are also highlighted in the 
recent GAO study that we are discussing today.
    The GAO study acknowledges many of the barriers to access 
to broadband services on tribal lands. The main source of 
information regarding broadband availability is the National 
Broadband Map. As the GAO points out, this data has not been 
updated since 2015.
    NTTA members, as providers of broadband and telecom 
services to their communities, report access information to the 
FCC by filing a form 477. We do this twice a year. The form 477 
filings are the FCC's main tool for evaluating broadband 
coverage and performance throughout the United States, by using 
census blocks for fixed broadband providers and shapefiles for 
mobile providers. On one level, as a snapshot, it provides very 
useful information. However, all parties interested in robust 
broadband access need more granular and detailed information. 
The reliance on census block data is inadequate.
    I must emphasize a point made in the GAO study: the 
collection of more granular data or information will require 
more resources. Whether it be the FCC, the NTIA, or the RUS, 
more funding and personnel will be needed. Congress has 
recently acknowledged this by providing NTIA with some 
additional funding for maps. As you know, tribes are in need of 
a lot of that.
    NTTA members also know that the need for more detailed 
data-gathering and analysis will fall on us to provide these 
services. This is something that is needed desperately by 
tribes. I have first-hand experience that this takes many staff 
hours and stretches our funding even further.
    My company is currently working through the FCC process to 
dig deeper into the data that the form 477 provides for 
purposes of gathering and getting information and funding 
relief regarding operational expenses. The FCC's Chairman Ajit 
Pai has questioned the wisdom of operational expense caps, and 
I encourage him and the rest of the Commission to continue to 
work with us to get a positive outcome in this current matter.
    The GAO study mentions two areas of data the FCC does not 
collect: affordability and quality of service. These are two 
very important aspects to the take rate of broadband service, 
especially in remote tribal communities. In many instances, the 
price of broadband access for many consumers is simply out of 
reach. Broadband accessibility is not a luxury, it is a 
necessity in today's modern world. Low quality of service, 
experienced in many tribal communities, leads to frustration 
and less take rate by consumers. Outages, slow speed and high 
latency results in inefficiency and low productivity. This form 
of data collection must be addressed.
    The GAO study looks into the lack of engagement between 
tribal communities and the broadband providers that serve them. 
NTTA's tribally-owned and operated communications providers are 
a part of their Native community. However, we do not see the 
need to improvement engagement between tribal entities, 
Federal, State and local governments and private business on 
many far-ranging issues. NTTA agrees with the study's three 
recommendations: more targeted data collection, a formal 
process to obtain tribal input, and better engagement by all 
involved entities.
    In reference to the just-released GAO study regarding 
partnerships that states that, from 2010 to 2017, less than 1 
percent of FCC funding and about 14 percent of RUS funding went 
directly to tribes and tribally-owned providers. Thank you, 
Senator Udall, for stating that earlier in his opening 
statement. This illustrates the need for funds that are 
targeted for use on tribal lands.
    More work needs to be done by all parties interested in 
this issue. We all share the worthy goal that consumers, no 
matter where they live or work, need accessible, robust and 
affordable broadband services to prosper and thrive in the 
modern and ever-evolving world economy.
    Thank you, sir, and I will be available for questions.
    [The prepared statement of Mr. Enjady follows:]

   Prepared Statement of Godfrey Enjady, President, National Tribal 
                     Telecommunications Association
    Chairman Hoeven, Ranking Member Udall and members of the Committee, 
thank you for this opportunity to testify today. I am Godfrey Enjady, 
General Manager of Mescalero Apache Telecom, Inc. (MATI) located in 
Mescalero, New Mexico. Today I testify as President of the National 
Tribal Telecommunications Association (NTTA), which is comprised of the 
nine Tribally-owned and operated telecommunications companies that 
provide voice, broadband and other communications services to their 
communities. Those companies are Cheyenne River Sioux Telephone 
Authority, Fort Mojave Telecommunications, Inc., Gila River 
Telecommunications, Inc., Hopi Telecommunications, Inc., Mescalero 
Apache Telecom, Inc., Saddleback Communications, San Carlos Apache 
Telecommunications Utility, Inc., Tohono O'odham Utility Authority, and 
Warm Springs Telecom. The Nez Perce Tribe and Sacred Wind 
Communications are associate members.
    Members of NTTA represent only a small portion of the 573 Tribes 
recognized by the federal government. While areas served by NTTA 
members may have better broadband access than much of Indian Country, 
we agree with this study's conclusion that a vast majority of Tribal 
areas are lacking in or overstating broadband coverage.
    Mescalero Apache Telecom serves the entirety of the Mescalero 
Apache Reservation located in the remote South Central Mountains of New 
Mexico. Prior to MATI purchasing its service area and building its 
network in 2001, 52 percent of the Mescalero Apache Tribe received no 
service, and 48 percent received only basic voice service. MATI 
provides services in what is considered a rural, high-cost area and 
serves an average population density of two customers per square mile. 
This situation causes the average cost per loop to substantially exceed 
the national average. MATI, like all NTTA members, has a high 
percentage of its consumer base that qualifies for the Lifeline 
program, a very important element in the affordability and adoption of 
broadband service. We support the adoption of an enhanced Lifeline 
credit for Native communities.
    I want thank members of this committee for your leadership on this 
issue. I also want to thank the staff at GAO for their knowledge and 
professionalism. I, along with other NTTA members, participated in 
interviews with GAO. We appreciate their work.
    The difficulties in serving remote, dispersed communities situated 
in hard to serve, rough terrain has been thoroughly illuminated in 
Congressional testimony and on the record at the Federal Communications 
Commission (FCC), and with USDA's Rural Utilities Service (RUS). They 
are also highlighted in the recent GAO study that we are discussing 
today (GAO-18-630).
    The September 2018 GAO study acknowledges many of the barriers to 
access to broadband services on Tribal lands that are primarily located 
in rugged, sparsely populated areas. The main source of information 
regarding broadband availability is the National Broadband Map. As the 
GAO points out, this data has not been updated since 2015.
    NTTA members, as providers of broadband and telecommunications 
services to their communities, report access information to the Federal 
Communications Commission (FCC) by filing a Form 477. We do this twice 
a year. The Form 477 filings are the FCC's main tool for evaluating 
broadband coverage and performance throughout the United States by 
using census blocks for fixed broadband providers and shapefiles for 
mobile providers. On one level, as a snapshot, it provides very useful 
information. However, all parties interested in robust broadband access 
need more granular and detailed information to decide policy issues, 
subsidization and investment levels, and the use of various 
technologies.
    I must emphasize a point made in the GAO study--the collection of 
more granular information will require more resources. Whether it be 
the Federal Communications Commission, the National Telecommunications 
and Information Administration (NTIA) or the USDA's Rural Utilities 
Service, more funding and personnel will be needed. Congress has 
recently acknowledged this by providing NTIA with some additional funds 
for mapping. NTTA members also know that the need for more detailed 
data gathering and analysis will fall on us to provide. I have 
firsthand experience that this takes many staff hours and stretches our 
funding even further. In response to an Order released by the 
Commission earlier this year, my company is currently working through 
the FCC process to dig deeper into the data than the Form 477 provides 
for the purpose of getting funding relief regarding operational 
expenses (which are currently capped). FCC Chairman Ajit Pai has 
questioned the wisdom of the operational expense caps and I encourage 
him and the rest of the Commission to continue to work with us to get a 
positive outcome in this current matter.
    The GAO study mentions two areas of data the FCC does not collect, 
affordability and quality of service. These are two very important 
aspects to the take rate of broadband service, especially in remote 
Tribal communities. In many instances, the price for broadband access 
for many consumers is simply out of reach. Broadband accessibility is 
not a luxury; it is a necessity in today's modern world. Low quality of 
service, experienced in many Tribal communities, leads to frustration 
and less take rate by consumers. Outages, slow speeds and high latency 
results in inefficiency and lower productivity. This form of data 
collection must be addressed.
    The FCC is considering proposals to modify the Form 477 data 
collection. NTTA encourages the Commission to work quickly to formulate 
a final rule.
    The GAO study looks into the lack of engagement between Tribal 
communities and the broadband providers that serve them. That is not a 
problem in the communities served by NTTA members. NTTA's Tribally-
owned and operated communications providers are a part of their Native 
community. However, we do see the need to improve engagement between 
Tribal entities, federal, state and local governments, and private 
businesses on many far ranging issues (rights-of-way, easements, pole 
and tower siting, etc.).
    NTTA agrees with the study's three recommendations: more targeted 
data collection, a formal process to obtain Tribal input (including 
outreach and technical assistance), and better engagement by all 
involved entities.
    In reference to the just released GAO study (GAO-18-682) regarding 
partnerships, NTTA wants to stress the information on page 16 of the 
document--''Specifically, from 2010 to 2017, we found that less than 1 
percent of FCC funding and about 14 percent of RUS funding went 
directly to tribes and tribally owned providers. Combined, FCC and RUS 
funding totaled $34.6 billion during that time period and tribes and 
tribally owned providers received $235 million, or about 0.7 percent.'' 
This illustrates the need for funds that are targeted for use on Tribal 
lands.
    More work needs to be done by all parties interested in this issue. 
We all share the worthy goal that consumers, no matter where they live 
or work, need accessible, robust and affordable broadband services to 
prosper and thrive in the modern and ever evolving world economy.
    Once again, thank you for the opportunity to appear before you 
today.

    The Chairman. Thank you. Mr. Blackwell.

  STATEMENT OF GEOFFREY C. BLACKWELL, CHIEF STRATEGY OFFICER/
      GENERAL COUNSEL, AMERIND RISK MANAGEMENT CORPORATION

    Mr. Blackwell. Chairman Hoeven, Vice Chairman Udall and 
members of the Committee, [greeting in Native tongue], and 
thank you for the opportunity to testify today about the 
recently-released GAO reports.
    As you know, I testified before this Committee twice, as 
the first chief of the FCC's Office of Native Affairs and 
Policy. Having returned to work in Indian Country, it is my 
honor to appear again today in the spirit of the trust 
relationship.
    AMERIND is located on the Pueblo of Santa Ana, and it is a 
32-year old tribally-owned and federally-chartered Section 17 
corporation. AMERIND is one of the few multi-tribal financial 
institutions. We support economic opportunity across Indian 
Country by protecting tribal housing, tribal governments, 
businesses, and work forces. We even provide cyber security 
protection.
    With the vision of tribes protecting tribes, AMERIND 
protects almost $14 billion in tribal properties. We serve 
hundreds of tribes, and we know Indian Country. Because we know 
a vast majority of Indian Country lacks broadband, almost three 
years ago our board of directors created AMERIND Critical 
Infrastructure, our division that provides strategic planning 
for tribal broadband deployment, subsidy grant and loan 
application management, and regulatory compliance.
    In the context of these GAO studies, I am here today with 
thoughts on three topics: tribal broadband data, tribal 
government engagement and broadband partnerships. First, the 
data. Developing data-driven solutions has long been the mantra 
of government to solve the digital divide. With this in mind 
and in the context of these GAO reports, the FCC's most recent 
numbers are alarming in how they overstate the levels of 
broadband on tribal lands. The accuracy of the data is 
questionable and does not reflect reality.
    Furthermore, the manner in which deployment is measured is 
not based on actual deployment, but on potential deployment, 
which is meaningless if it cannot be achieved. And broadband 
deployment on tribal lands is affected by additional factors 
not currently taken into account, such as affordability.
    I have been fortunate to set foot in over 200 Indian 
reservations, many Alaska Native villages and many Hawaiian 
Homesteads. My experience tells me that the data is not the 
reality. While there have been incremental and important 
improvements, we still have much work to do.
    Polices and rules should not be created in a vacuum, but 
must be rooted in the real world experience and analysis. 
Indian Country stands ready to work with the FCC to determine a 
process that will collect and clarify the data, and create a 
reliable path forward for mapping legislative and regulatory 
solutions.
    Second, tribal government engagement. The best approach to 
developing comprehensive broadband solutions is to work 
together to remove barriers and build models with tribal 
nations that engage their core community and anchor 
institutions. Data will paint a picture, but the parties need 
to genuinely discuss what is happening on the ground.
    It was upon this foundation that the FCC adopted a tribal 
government engagement obligation in 2011. However, it has not 
met its intended potential. Tribal leaders relay that the data 
that carriers provide is often heavily redacted or comes with 
the unforeseen requirement of a non-disclosure agreement. As a 
result, tribes do not have the opportunity afforded them in the 
rules to review data about their own lands before it is used to 
make decisions regarding Federal funding and policy priorities.
    Several years of data and experience is now available, and 
Indian Country is ready to work with the FCC to evaluate 
compliance and develop best practices. This will require a deep 
commitment to substantive consultation with tribal nations. The 
FCC's Office of Native Affairs and Policy is the vehicle 
designed to drive this effort to bring the parties together, 
evaluate challenges and needs, and help develop regulatory 
solutions.
    Third, broadband partnerships in Indian Country. Regulatory 
solutions that have seen success in the past two decades have 
necessarily created more recalcitrant streams of the digital 
divide, where those regulations have not driven deployment. The 
thesis here is simple: put more of those precious dollars where 
they are truly needed, and make them more effective. We should 
stop doing things that are antithetical.
    Many tribal nations recognize that they may be the only 
ones willing to take on the debt to bring partnerships and 
robust broadband to their communities. There are few but 
important examples of tribally-provided networks, including 
tribal telcos, wireless networks and the two tribally-owned 
fiber networks in New Mexico that provide hope, a foundation 
and potential models upon which to build.
    In conclusion, the pervasive lack of broadband access 
prevents residents of tribal lands from accessing information 
and services critical in the 21st century. The FCC is obligated 
to open the door for every citizen to become part of the 
digital future of our Country, and to ensure that tribal 
nations enjoy a secure and enduring place in that future. 
Tribal nations need digital equity, and want to work together 
as trust partners to make broadband deployment a reality. 
Because however precious Federal funds are targeted, rules are 
developed and definitions are created, they must be rooted in 
the reality of Indian Country.
    Mvto, thank you, and I look forward to whatever questions 
you may have.
    [The prepared statement of Mr. Blackwell follows:]

  Prepared Statement of Geoffrey C. Blackwell, Chief Strategy Officer/
          General Counsel, Amerind Risk Management Corporation
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
thank you for the opportunity to testify today about the recently 
released GAO reports on the state of broadband on Tribal lands.
    As you know, I testified before this Committee twice during my 
tenure as the founding Chief of the Federal Communications Commission's 
(FCC) Office of Native Affairs and Policy. Having returned to work in 
Indian Country, it is my pleasure to appear before you again today. I 
am here again in the spirit of the unique trust relationship that 
Tribal Nations share with the United States federal government, and 
again from the Tribal side of that important relationship.
    I work as the Chief Strategy Officer and General Counsel of AMERIND 
Risk Management Corporation (``AMERIND Risk''). AMERIND Risk, located 
on the Pueblo of Santa Ana, is a federally chartered and Tribally-owned 
corporation, organized and incorporated by the United States Department 
of Interior under Section 17 of the Indian Reorganization Act, 25 
U.S.C.  5124, as amended, and has certain powers, privileges, and 
immunities granted by that statute.
    AMERIND was created in 1986 to address the housing crisis and the 
inability of Tribal Nations to secure insurance for their housing on 
the open market. Today, AMERIND Risk does business across seven 
business lines, with hundreds of Tribes and Tribal businesses, in 38 
states. AMERIND Risk generates and supports economic development across 
Indian Country by offering insurance products for Tribal housing, 
Tribal governments and businesses, and Tribal workers compensation, for 
example, and living up to its motto of Tribes Protecting Tribes.
    AMERIND Risk now protects almost $14 billion in Tribal physical 
infrastructures--homes, headquarters buildings, and other structures. A 
vast majority of these structures are on the wrong side of the digital 
divide. So, almost three years ago, in an effort both to diversify 
business and to ``give back'' to Indian Country, the AMERIND Risk Board 
of Directors created AMERIND Critical Infrastructure (``ACI''). With 
ACI's motto of Tribes Bringing Tribes Broadband, this groundbreaking 
division provides a wide range of services across Indian Country, 
including strategic planning for sovereign Tribal broadband deployment; 
broadband subsidy, grant, and loan application management; regulatory 
management and compliance; and social impact funding.
    AMERIND Risk is also making investments in Indian Country. In 2018, 
our Board of Directors made a multi-million dollar loan to the First 
Nations Oweesta Corporation (``Oweesta'') for Tribal projects. The 
Board's investment will allow Oweesta to leverage larger amounts of 
lending capital for Native Community Development Financial 
Institutions, or CDFIs. Our intention with this investment is to see it 
magnified many times to fund housing and all manners of infrastructure 
in Indian Country.
    I also serve as Chairman of the Board of Directors of Native Public 
Media; Co-Chair of the National Congress of American Indians' (NCAI) 
Economic, Finance and Community Development Committee; Co-Chair of 
NCAI's Telecommunications and Technology Subcommittee; and Vice 
Chairman of the Board of Directors of Arizona State University's 
American Indian Policy Institute.
    While there has been incremental improvement in recent years, 
residents of Tribal lands continue to disproportionately lack access to 
broadband. Beginning in 2015, the FCC defined a benchmark speed of 25 
Mbps downstream/3 Mbps upstream (25/3) as necessary to support the 
``advanced telecommunications capability'' that Congress identified in 
Section 706 of the Telecommunications Act of 1996. Yet, according to 
the Commission's 2018 Broadband Deployment Report, \1\ released in 
February, Tribal lands continue to be left far behind from receiving 
these advanced services envisioned by Congress. For example, 36 percent 
of residents on Tribal lands lack access to fixed broadband service at 
the benchmark speed of 25/3, as compared to 7 percent nationwide. And 
the disparity grows even more striking on Tribal lands in rural areas, 
where 59 percent of residents lack access to what has become the high-
speed Internet lifeblood of our 21st century economy, educational 
opportunities, health care, and public safety.
---------------------------------------------------------------------------
    \1\ Inquiry Concerning Deployment of Advanced Telecommunications 
Capability to All Americans in a Reasonable and Timely Fashion, GN 
Docket No. 17-199, 2018 Broadband Deployment Report, 33 FCC Rcd 1660 
(2018) (2018 Broadband Deployment Report).
---------------------------------------------------------------------------
    A more detailed breakdown of the FCC's most recent data on the 
state of broadband access in different regions of Indian Country is 
provided below.

 Deployment (Ten Thousands) on Tribal Lands with Access to Fixed Terrestrial 25 Mbps/3 Mbps Services and Mobile
                                        LTE with a Speed of 5 Mbps/1 Mbps
----------------------------------------------------------------------------------------------------------------
                                              2012 Pop.     2013 Pop.     2014 Pop.     2015 Pop.     2016 Pop.
                                                and %         and %         and %         and %         and %
----------------------------------------------------------------------------------------------------------------
All Tribal Lands                            111.653--28.  138.505--35.  221.177--56.  225.788--57.  254.954--63.
                                                      8%            5%            2%            0%            9%
Rural Areas                                  14.228--7.2  28.306--14.1  59.658--29.5  61.377--30.1  84.452--40.9
Urban Areas                                 97.425--51.5  110.198--57.  161.519--84.  164.412--85.  170.502--88.
                                                                     9             5             6             5
Alaskan Villages                             0.022--0.1%  7.126--28.2%  11.329--44.4  11.027--42.7  13.483--51.5
                                                                                   %             %             %
Rural Areas                                   0.013--0.1   2.113--13.1   4.214--25.8   3.920--23.7   6.096--36.2
Urban Areas                                   0.010--0.1   5.013--54.9   7.115--77.4   7.107--76.7   7.387--79.0
Hawaiian Homelands                          2.850--89.8%  2.924--90.6%  3.169--96.9%  2.955--88.9%  2.961--88.6%
Rural Areas                                  0.250--50.9   0.235--45.0   0.455--83.0   0.246--43.9   0.250--43.5
Urban Areas                                  2.600--96.9   2.688--99.4   2.715--99.8   2.709--98.0   2.711--98.0
Lower 48 States                             21.111--19.9  32.069--30.0  41.861--38.8  45.187--41.5  49.278--44.6
                                                       %             %             %             %             %
Rural Areas                                   5.680--8.1  13.364--18.9  18.512--25.8  20.668--28.4  23.360--31.6
Urban Areas                                 15.432--43.0  18.705--51.9  23.349--64.8  24.519--67.8  25.918--71.2
Tribal Statistical Areas                    87.669--34.6  96.386--37.8  164.818--64.  166.619--64.  189.232--73.
                                                       %             %            2%            5%            0%
Rural Areas                                   8.285--7.4  12.594--11.2  36.477--32.1  36.542--32.0  54.746--47.6
Urban Areas                                 79.384--56.1  83.793--58.8  128.341--89.  130.077--90.  134.486--93.
                                                                                   7             3             3
Pop. Evaluated                              387.603--100  390.508--100  393.310--100  396.401--100  399.114--100
                                                       %             %             %             %             %
----------------------------------------------------------------------------------------------------------------
Source: 2018 Broadband Deployment Report, Table 5

    While these numbers are alarming, taking into account the most 
recent GAO study on the matter, they grossly overstate the levels of 
broadband access on Tribal lands. The accuracy and reliability of the 
data itself is questionable. The FCC Form 477 data, from which these 
statistics were generated, is carrier-reported data that receives some 
review by the FCC and no review by Tribal governments. Moreover, the 
manner in which deployment is measured is not necessarily based on 
actual deployment but, in many instances, on potential deployment. That 
potential is meaningless if it cannot be achieved, and the achievement 
of broadband deployment on Tribal lands is importantly related to 
additional factors not currently taken into account. This current 
approach results in a skewed and overstated depiction of broadband 
deployment in Indian Country.
    And these statistics paint only part of the picture--behind them 
lurks a stark reality. In my life and career, I have been fortunate to 
set foot on over 200 federal Indian reservations nationwide, on dozens 
of Alaska Native Villages, and on Hawai'ian Homesteads throughout the 
Hawai'ian Islands--and my experiences are that the data simply does not 
reflect the reality. A potential service offering to as little as one 
household within a census block or tract does not equate to deployment, 
and therefore does not reflect the reality of the digital divide in 
Indian Country. Plain and simple. The data must be improved and Tribal 
Nations are more than willing to help.
    Tribal lands continue to suffer from the historical negative 
impacts of how, when, and where they were created. Aspects of this 
history resulted in an endemic lack of critical infrastructures, which 
persists today. In fact, almost no critical infrastructure has come to 
Tribal lands without federal investment, oversight, and regulation. 
Broadband opportunities can do much to overcome this negative history 
by bringing health care, education, jobs, and the opportunities of hope 
to Indian Country. But broadband must be available, accessible, and 
affordable to meet its promise.
    It was in the context of the persistent disparity in communications 
services on Tribal lands that GAO initiated a series of engagements on 
the persistent challenges facing broadband deployment across Indian 
Country. The first GAO report, entitled ``Broadband Internet: FCC's 
Data Overstate Access on Tribal Lands,'' was released on September 7, 
2018, and examines issues associated with carrier-provided data 
measuring broadband access on Tribal lands and its impact on broadband 
deployment across Indian Country. The second GAO report, entitled ``Few 
Partnerships Exist and the Rural Utilities Service Needs to Identify 
and Address and Funding Barriers Tribes Face,'' was released on 
September 28th and examines the use of partnership arrangements between 
Tribal entities--Tribal governments and telecommunications providers 
owned by Tribes--and other entities, and their impact on broadband 
funding and deployment across Indian Country.
Broadband Deployment Data on Tribal Lands
    Again, the current FCC data on broadband availability on Tribal 
lands does not reflect the reality of Indian Country. While there has 
been incremental improvement in broadband access in Indian Country, we 
still have much to do. Indian Country stands ready to help all those 
that will be involved in a process that will collect and clarify the 
data, and create a reliable path forward for mapping legislative, 
regulatory, and on the ground projects. Data driven solutions have been 
the mantra of governments--federal, state, and Tribal--throughout the 
enduring lifespan of the digital divide.
    This is as true today as it was in 2011, when this Committee 
articulated this same concern and when I had the privilege of 
testifying before you in my previous role as Chief of the FCC's Office 
of Native Affairs and Policy. I relayed at that time that a major 
concern of Tribal leaders involved the accurate measurement of the 
actual state of broadband availability on Tribal lands--specifically, 
the depth and accuracy of the data on the state of services on their 
lands. I described the 2011 Native American Summit in Salt Lake City, 
during which my staff and I witnessed representatives of the Goshute 
Confederated Tribes explain to the Utah broadband mapping manager that 
the gross overestimation of wireless broadband coverage on the Goshute 
Reservation actually precluded the Tribe from applying for federal 
grants and loans for a Tribal project that would address their lack of 
services.
    And this was not an isolated incident, but rather stands as but one 
example of many about which I learned first-hand during my tenure at 
the FCC and continue to learn now that I have returned to work in 
Indian Country. This is a cycle that can--and must--be changed if the 
goal of universal broadband across Tribal lands is to be realized. 
Comprehensive Tribal-specific, quantifiable, accurate, and reliable 
data is the predicate upon which investment--be it federal, Tribal, 
state, or private--depends. And it is also the foundation upon which 
universal broadband deployment across Tribal lands will be realized.
    How will this be accomplished? As this Committee understands so 
well, there is no ``one size fits all'' approach in Indian Country. 
Rather, ``one size fits none'' is a more accurate characterization, 
which is why data specific to individual Tribal lands is so very 
critical. And, as reflected in GAO's Tribal broadband data 
recommendations, this will require both a dedicated process to collect 
broadband data specific to Tribal lands and a dedicated process to 
substantively involve Tribal Nations in the review of carrier-reported 
data. These processes are two sides of the same coin and, in many ways, 
interrelated. That is, both processes share the same goal--the 
collection of comprehensive and accurate data reflecting the actual 
state of broadband on Tribal lands. They are also inherent in the FCC's 
trust relationship with Tribal Nations and are a critical component of 
the agency's 2000 Tribal Policy Statement. \2\ And both processes will 
require substantive Tribal government involvement and the full support, 
cooperation, and partnership of the federal government.
---------------------------------------------------------------------------
    \2\ See Establishing a Government-to-Government Relationship with 
Indian Tribes, Policy Statement, 16 FCC Rcd 4078 (2000) (Tribal Policy 
Statement).
---------------------------------------------------------------------------
    This is not an easy task--but bridging the digital divide in Indian 
Country has certainly proven to be far from an easy task. Partnerships, 
policies, and rules are not created in a vacuum, but instead are rooted 
in real world experience and analysis. Indian Country stands ready to 
work in partnership with the FCC to determine the best approaches, the 
best vehicles, and the most culturally appropriate ways in which to 
collect this critical data.
    And there is something important here to understand about the data, 
to ensure that it is meaningful. Data on the digital divide in Indian 
Country must take into account everything--every condition--that 
contributes to it. In addition to the census blocks that take into 
account remoteness or terrain, Indian Country data must also account 
for the factors that contribute to adoption, such as affordability and 
availability. The thesis here is simple--get more broadband deployment 
where it is needed. Make resources effective and available, so that 
broadband offerings are affordable and available. We all need to 
coordinate on things that comport with that thesis--and stop doing 
things that are antithetical.
    I would like to share with you two examples of comprehensive 
quantitative and qualitative Tribal broadband studies produced in 
recent years. Both studies focused on deployment (accessibility) and 
adoption (uses) of broadband in Indian Country. The first study, 
released in 2009, is entitled ``New Media, Technology and Internet Use: 
Qualitative and Quantitative Analyses'' and was produced by Native 
Public Media and the New America Foundation. \3\ It was the first study 
of its kind, and contained groundbreaking data on the state of 
broadband in Indian County. The second study, due to be released 
shortly, is entitled ``Tribal Technology Assessment: The State of 
Internet Service on Tribal Lands'' and is produced by the American 
Indian Policy Institute of Arizona State University. \4\ This is an 
update on the 2009 study, and both studies are Tribal-centric and 
contain compelling data on the deployment and adoption of broadband in 
Tribal communities. Both studies confirm that quantifiable, accurate, 
and reliable Tribal-specific broadband data can be collected, compiled, 
and analyzed--in other words, it can be done. Improving Indian 
Country's broadband data can be done, and it must be done.
---------------------------------------------------------------------------
    \3\ TRACI L. MORRIS, NATIVE PUBLIC MEDIA, & SASCHA D. MEINRATH, NEW 
AMERICA FOUNDATION, NEW MEDIA, TECHNOLOGY AND INTERNET USE IN INDIAN 
COUNTRY (2009) (NPM/NAF New Media Study).
    \4\ TRACI MORRIS & BRIAN HOWARD, ARIZONA STATE UNIVERSITY, AMERICAN 
INDIAN POLICY INSTITUTE, TRIBAL TECHOLONGY ASSESSMENT: THE STATE OF 
INTERNET SERVICES ON TRIBAL LANDS (release pending) (Tribal Technology 
Assessment).
---------------------------------------------------------------------------
The FCC's Tribal Government Engagement Obligation
    As I stated when I testified before this Committee in 2011, Tribal 
engagement is a critical component of broadband deployment. That 
concept is as true today as it was in 2011. The best approach to 
developing and coordinating well thought-out solutions is to work 
together to identify and remove barriers to solutions and build models 
with Tribal Nations that engage their core community or anchor 
institutions. As Tribes govern with a unique understanding of their 
communities, their vested and active involvement is critically 
important to finding lasting solutions in their communities. Tribal 
Nations need to be at the center of those solutions, whether it is 
through self-provisioning or through other new ``Tribal-centric'' 
methods of engagement and deployment with industry, public, or private 
partners. These models must respect the cultural values and sovereign 
priorities of Tribal Nations and be infused with the local knowledge 
that will lead to better opportunities for successful deployment in 
Tribal communities.
    It was upon this foundation that the FCC adopted a Tribal 
government engagement obligation in 2011, as part of the reform of the 
universal service High-Cost program and the transition to the Connect 
America Fund (CAF). \5\ The FCC agreed with commenters that engagement 
between Tribal governments and communications providers is vitally 
important to the successful deployment and provision of service on 
Tribal lands. The FCC therefore required, at a minimum, that eligible 
telecommunications carriers (``ETC'') demonstrate on an annual basis 
that they have meaningfully engaged with Tribal governments in their 
universal service supported areas, and that such discussions must 
include, at a minimum:
---------------------------------------------------------------------------
    \5\ See Connect America Fund, WC Docket No. 10-90 et al., Report 
and Order and Further Notice of Proposed Rulemaking, 26 FCC Rcd 
17663,17868-69, para. 637 (2011) (USF/ICC Transformation Order), aff'd 
sub nom. In re: FCC 11-161, 753 F.3d 1015 (10th Cir. 2014).

  <bullet> A needs assessment and deployment planning with a focus on 
---------------------------------------------------------------------------
        Tribal community anchor institutions;

  <bullet> Feasibility and sustainability planning;

  <bullet> Marketing services in a culturally sensitive manner;

  <bullet> Rights of way processes, land use permitting, facilities 
        siting, and environmental and cultural preservation processes; 
        and

  <bullet> Compliance with Tribal business and licensing requirements.

    In addition, also in the context of High-Cost/CAF reform, the FCC 
required ETCs to provide a wide range of data on telecommunications and 
broadband services and deployment to the FCC, state commissions, the 
Universal Service Administrative Company (USAC), and Tribal 
governments.
    It is fair to say that the Tribal government engagement obligation 
has not lived up to its intended potential. While some providers have 
taken the obligation seriously, many more have viewed it as a ``check 
the box'' requirement for the receipt of millions of dollars in 
universal service funding. Both during and since my tenure at the FCC, 
Tribal leaders have relayed innumerable situations in which they simply 
receive a template letter once a year from their providers as their 
sole effort to comply with the Tribal government engagement obligation.
    Perhaps even more disturbing, Tribal leaders have relayed that the 
data ETCs are required to provide to them annually more often than not 
is heavily redacted and, as a result, unintelligible. This is data 
about service on their own Tribal lands. In other instances, Tribal 
leaders are presented with non-disclosure agreements with the demand 
that they be signed if the Tribes want access to their own broadband 
data. There is no provision in the FCC's rules that allows these 
practices, yet they continue nonetheless. As a result, not only do 
Tribes not have the opportunity to substantively review data before it 
is used to make decisions with respect to federal funding and policy 
priorities, they are, in many instances, not even given the opportunity 
afforded them in the FCC's rules to review data about service on their 
own lands.
    Now that several years' worth of data and experience is available, 
it is time to seriously evaluate compliance and develop best practices 
going forward. These processes will require substantive consultation 
with Tribal Nations pursuant to the FCC's trust relationship with 
Tribes. They will also require a deep commitment from all parties 
involved, including providers, Tribal Nations, inter-Tribal 
organizations, and the FCC--all with the shared goal of making 
broadband universally available across Indian Country.
Partnerships
    Regulatory investment solutions that have seen incremental success 
in the past two decades have also created more recalcitrant strains of 
the digital divide in areas where those regulatory solutions have not 
driven deployment and adoption. Many Tribal Nations recognize the 
reality that they are part of the solution not only for achieving good 
data on broadband access, but also part of the solution in Tribally-
driven projects that will bring connectivity to their communities. In 
an environment where few outside and non-Tribal entities are willing to 
make the investment and confront the potential debts of deploying on 
Tribal lands, Tribes themselves are confronting the challenges and 
opportunities of becoming their own providers--in whatever form that 
may take.
    Tribal Nations are having to analyze the ``ownership economics'' of 
their own projects that would bring broadband to their own corners of 
Indian Country. Those who are willing to take on the challenge and face 
the debts as de facto providers of last resort need help. They need all 
of our help. It is high time that everyone involved in this challenge 
acknowledge this reality and the potential of Tribal projects developed 
by Tribal Nations.
    AMERIND is located on the Pueblo of Santa Ana, in north central New 
Mexico about 30 miles from Albuquerque, the state's largest city. We 
only received broadband service within the last couple of years when a 
water project nearby brought fiber down the road adjacent to our 
building. This is an all too common occurrence on Tribal lands, and is 
exacerbated in the most remote parts of Indian Country. Often the 
incumbent's fiber is just across the road from Tribal lands--or is even 
running across Tribal lands--and yet the incumbent will not provide 
service to the Tribe.
    This is the very situation facing many of the Tribes in New Mexico. 
Knowing that there was strength in numbers and that incumbents and 
other providers would never provide the level of service that the 
Tribes both wanted and needed, two separate consortia formed to 
leverage the federal E-rate program and finally bring broadband to 
Tribal schools and libraries on six Pueblos. With the expertise, 
guidance, and advocacy of the ACI team, the two Tribal consortia 
secured almost $8 million in federal E-rate subsidy dollars to bring 
Tribally-owned fiber networks to their Pueblo communities.
    Together, the Middle Rio Grande E-rate Consortium--comprised of the 
Santa Ana, San Felipe, Santo Domingo, and Cochiti Pueblos--and the 
Jemez-Zia E-rate Consortium--comprised of the Jemez and Zia Pueblos--
built 60 miles of Tribally owned and controlled fiber at a 95 percent 
discount afforded by the E-rate program. These networks are now 
providing a dramatic increase in broadband speeds (from 3 Mbps to 100 
Mbps and beyond) and an equally dramatic decrease in cost (from over 
$100 per megabit per month to less than $7 per megabit per month)--all 
for the benefit of Tribal schools and libraries. Both networks were 
``lit,'' or operational, in the summer of 2018.
    These two first of their kind Tribal projects represent what can be 
done to bring broadband to communities in Indian Country through 
effective partnerships. Such efforts are few and far between now, but 
these partnerships provide hope, a foundation, and a potential model 
upon which to build.
    In conclusion, the ubiquitous lack of access to broadband services 
over Tribal lands continues to create a divide preventing residents of 
Tribal lands from accessing information and services critical to our 
21st century economy. Community-oriented and truly effective deployment 
of communications technologies within Indian Country, however, has the 
potential to level the negative social, cultural, and economic impacts 
that history has caused Tribal Nations to endure. New commercial, 
educational, and health care opportunities, as well as social stability 
and quality of life issues, can genuinely be improved through 
broadband. And most importantly, extending broadband across Indian 
Country will achieve a more equal opportunity for all Americans--
opening the door for every citizen to become a part of the digital 
future of our country and ensuring that Tribal Nations enjoy a secure 
and enduring place in that future.
    The FCC is obligated to undertake this effort pursuant to its 
mandate in the Communications Act that ``access to advanced 
telecommunications and advanced services should be provided to all 
regions of the Nation.'' They are also obligated to undertake this 
effort pursuant to the trust relationship and trust responsibility they 
share with Tribal Nations. They owe this effort to consumers 
nationwide, who pay for the universal service subsidy programs. But 
most of all, they owe it to Tribal Nations, who have waited so very 
long for digital equity and stand ready to work together as equal 
partners, pursuant to their trust relationship with the federal 
government, to finally make it a reality. Because, however precious 
federal funds are targeted, rules are developed, and definitions are 
created, they must be rooted in the reality of Indian Country.
    Mvto, and thank you again for the opportunity to testify this 
afternoon. I look forward to answering any questions you may have.

    The Chairman. I would like to thank all our witnesses. I 
will start with the first five-minute round of questions.
    Director Goldstein, in both reports, the GAO recommends 
improvements to data collection. For example, the GAO suggests 
the Chairman of the FCC develop a formal process to obtain 
tribal input on the accuracy of provider-submitted broadband 
data and provide outreach and technical assistance to help 
tribes participate in that evaluation.
    Can you talk to us about how this lack of information has 
had a negative impact on the tribal communities?
    Mr. Goldstein. Yes, Mr. Chairman. In our discussion with 
providers as well as the tribes, we found that the lack of, and 
FCC agrees to some extent as well, that the lack of data has 
several implications that are negative for tribal lands. The 
first is, of course, that there is no assurance that there is 
any accuracy or completeness in the information itself, that 
maps tribal broadband. So it is impossible to know with any 
assurance whether tribes have full access to broadband.
    In our discussions with tribes to complete these reports, 
almost every single tribe we talked with said that the FCC data 
and the maps did not at all reflect what they believe the 
experience and reality to be on their land. This is equally 
important, not just to understand progress being made in Indian 
Country to improve broadband and to close the digital divide, 
it is also important because much of the funding that comes 
from the Federal Government, from the FCC and RUS and others, 
is based on the accuracy of these maps and whether or not there 
are funds that would be made available. Those are based in 
large part on these maps as well, and tribes have found that 
they cannot get funding in many instances, because the data is 
inaccurate and therefore, their ability to obtain funding is 
rejected.
    The Chairman. Thank you. Mr. Webre, the GAO report on 
mapping and data questions shows that the FCC's method for 
collecting data collection results is an overstatement of 
broadband service and access in both rural and tribal 
communities. This inaccuracy prevents the Commission from 
directing Federal funding opportunities to places that need it 
most. So how does the FCC plan to revise the process to collect 
more accurate and detailed data?
    Mr. Webre. Thank you, Senator. We understand that there is 
room for improvement. We have an ongoing proceeding that's 
currently ongoing, it's been going on for a year now. Chairman 
Pai announced it last year, in an attempt to get better, more 
accurate data, more comprehensive data, so that we can do a 
better job of funding areas that are truly unserved.
    There are some technical issues that we would have to 
overcome to get more granular data, sub-census raw data, incur 
some technical issues that we have to work through. There are 
also some burdens, additional burdens that may be put on the 
providers who are providing this service, some of whom are very 
small providers and who have limited resources.
    So we have to take all of those things into account. But 
the Chairman is very focused on this proceeding, and also on 
the fact that we do need better data.
    The Chairman. And that includes engagement with tribal 
government?
    Mr. Webre. Absolutely. Yes.
    The Chairman. Mr. Enjady, as a provider how would the 
National Tribal Telecommunications Association modify the 
provider data collection process to obtain more detailed 
broadband access data? So how do we make sure we get that 
better data?
    Mr. Enjady. Well, obviously we are going through a 
proceeding at the FCC on some op-ex relief. So we have been 
going out into the field and actually taking the data itself. 
So we have done it by ourselves, we are hoping through the 
process that the FCC eventually will come up with a process to 
do this, so that in the future, we hope, working together with 
the FCC, they can actually see exactly how this data is 
collected and how it works for us.
    It is something that tribes do need, especially more 
funding for these areas, to make sure tribe get online. 
Obviously you need to get it for Social Security, you need to 
get in, and they say, go to the web. Well, some of these guys 
don't know any of this stuff. But they do need more access, and 
hopefully we can do that with the FCC. I am sure, the office of 
ONAP and everybody else over there have been great to work 
with. So I want to make sure that, Chairman Pai, too, has been 
very good to work with us. Hopefully they can support us in 
Indian Country.
    The Chairman. Thank you. Vice Chairman Udall?
    Senator Udall. Thank you, Mr. Chairman. Let me just, a 
quick aside. Today I received a letter from Chairman Pai, and I 
would like to extend a quick thank you to the Chairman and his 
staff for responding to my request to fix issues in the tribal 
operations expense order that harmed both MATI and Sacred 
Winds' ability to serve their communities. Today the Chairman 
responded to these, directed to staff, to provide relief to 
these carriers.
    Mr. Webre, the FCC issued guidance in 2012 about tribal 
engagement. The GAO reports that that guidance is now stale. In 
fact, the GAO observed the ``The FCC has limited information 
regarding whether its tribal engagement requirement is 
fulfilling its intended purpose.'' When can we expect the FCC 
to update its 2012 guidance on what tribal engagement should 
include?
    Mr. Webre. Thank you for the question, Senator. On an 
informal basis, the Commission, through ONAP, has received 
feedback from tribes on how the engagement obligation has been 
going over the years. We understand that is not enough. We do 
share that internally with other members of the Commission, 
other bureaus and offices, to let them know what we are 
hearing, the feedback we are hearing.
    But we do understand we need to do more. Earlier this year, 
the Chairman announced the reconstitution of the Native Nations 
Communications Task Force. This, we think, will be an excellent 
topic for them to handle, for them to discuss. Then as we go 
forward, we will look at ways that we can put best practices in 
or something to update that guidance, that as you mentioned, 
was first instituted in 2012.
    Senator Udall. Do you have a timeline for us?
    Mr. Webre. Well, we're hoping to announce the membership of 
the Native Nations Communications Task Force in a week or so. 
So we will also announce a date of their first meeting, and we 
expect that to be one of the topics of their first meeting.
    Senator Udall. And I expect your intention is to try to 
really get this updated so that we know what we are dealing 
with.
    Mr. Webre. Absolutely. We would like to get the feedback 
from them first, make sure we understand what the issues are, 
and then socialize what can be done with them to better improve 
the process.
    Senator Udall. Mr. Enjady, your written testimony 
highlights the importance of tribal consultation, and tribal 
partnerships to shrink the digital divided in Indian Country. 
You also noted the need to improve engagement between tribal 
entities, Federal, State, local governments and private 
businesses regarding various issues such as water rights of 
way, easements and so on. Can you provide recommendations on 
how to improve the consultation process between all entities?
    Mr. Enjady. Thank you, Senator Udall, Vice Chairman. 
Recommendations, I think New Mexico, the State PRC and us, and 
everybody else, has shown a good example of how we can work 
together and provide best services for New Mexico. We were one 
of the first providers in New Mexico to be able to do that. I 
want to thank some of the commissioners from New Mexico that 
have really helped us in this area.
    Engagement with tribes and allowing us to voluntarily come 
to them and ask them, can you help us to be able to start this 
process of providing services to our tribal nation, and that 
was one of the things that really helped us a lot. And your 
help in New Mexico has been monumental in getting this started 
here for a lot of places.
    Examples for this can be seen through New Mexico and to all 
the other tribal players, as well as in other areas, where 
there are a lot of tribal carriers providing these types of 
services. I think, if we can get some movement in the future 
from ILECs, Tribal Nations and with ONAP, that we are working 
together, one thing that we are working together on is 
hopefully a conference down in Mescalero to save, to keep the 
tires of the telecom, see how we provide these services. I 
think that can be a shining example, especially if we can get 
more people out in the field to be able to see exactly what 
rough terrain that we provide these services in, how we need 
four-wheel drive just to get up some of these mountains and 
peaks to provide these services through microwave or fiber 
optic.
    So these are some of the things that we can look at, and 
hopefully we can recommend that. Just going out into the field 
and being able to see this first-hand, then you can see the 
examples of what's really happening out in Indian Country. 
Thank you, sir.
    Senator Udall. [Presiding] Mr. Enjady, I think you ae 
absolutely right, seeing it first-hand is tremendously 
important. I am going to come back to the rest of the panel on 
this same question about recommendations, but I am going to ask 
Senator Schatz to take his turn at this point. Thank you.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Ranking Member Udall.
    Mr. Webre, how do you think the FCC is doing mapping 
generally and on mapping in tribal lands? In plain English, how 
do you think you are doing?
    Mr. Webre. I think there is certainly room for improvement, 
Senator, and I think that is what we are doing in the ongoing 
proceeding. We are looking to make improvements on the 
availability of data and the accuracy of data and the 
comprehensiveness of the data.
    Senator Schatz. I want to make one observation. I listened 
very carefully to your five minutes of testimony. I know this 
space. It is true, that sometimes Senators only pay passing 
attention to testimony and just wait for their turn to talk. I 
listened to every word you said. And I don't understand what 
you said. And I don't hear a sense of urgency at all as it 
relates to this issue.
    What I don't understand, specifically, is why the burden is 
on tribal governments, and why, outside of tribal lands, the 
burden is on individual communities and municipalities to say, 
these maps are wrong. Why is it not the Federal Communication 
Commission's job, plenty of funding, and plenty of expertise--
to get it right the first time. As opposed to saying, here are 
maps, and you may avail yourselves of an appeals process. And, 
well, I am on a tribal government, or on a county some place, 
and I am supposed to go back to the FCC, fill out forms, get 
smart on broadband mapping and the burden of proof is on the 
people not covered, not on the Federal Communications 
Commission.
    So tell me why the burden shouldn't be on you to get it 
right the first time?
    Mr. Webre. Well, I believe the burden is on us to get it 
right.
    Senator Schatz. Are you getting it right the first time?
    Mr. Webre. With regard to the----
    Senator Schatz. Are you getting it right the first time?
    Mr. Webre. We are attempting to get it right. We know we 
can do better. And that is why we have an ongoing proceeding.
    Senator Schatz. Yes or no question. Are you getting it 
right the first time?
    Mr. Webre. Yes, we--no, we are not getting it right in the 
way that we would like, but we are working on getting it right 
by this open proceeding.
    Senator Schatz. But the way you talk right now is, what is 
maddening for communities who are not covered. Because you are 
acting as though the question is some kind of compliance with a 
rule or statute or a process. And I respect rules, statutes and 
processes. But if you're sitting there and you look at a map 
and you know your community, I looked at Senator Udall, I was 
sitting next to Senators Tester and Heitkamp, who say, I can 
look at this map and tell you off the top of my head how flawed 
this map is.
    So it is not just that there is some kind of corner or 
topographic idiosyncrasy or whatever it may be that you can't 
get a cell tower or you can't get broadband. It is not that. It 
is that on its face these maps are ridiculous.
    And to the extent that it is a problem generally, and you 
know it is, it is a huge problem on tribal land. And then I was 
also struck by what you said, that you don't want to overburden 
the providers, you are going to overburden the providers in 
collecting the data. And you want to open up a challenge 
process. And this goes back to whose job is this. Whose job is 
this? I am asking you a question.
    Mr. Webre. It is certainly the FCC's job to find out where 
it is, where deployment is needed. And we do have to take that 
into account. We have to take into account various things, 
including burdens that would be placed on providers, as well as 
technical challenges with getting more granular data.
    Senator Schatz. When I heard Mr. Goldstein's testimony from 
GAO, I hadn't looked at the fact that he was from GAO. And it 
was such a takedown of the way you guys operate, that I was 
actually shocked that it was GAO, because FCC overstates 
broadband access on tribal lands, does not have a formal 
process to obtain tribal input and broadband data, few tribal 
broadband partnerships exist and tribes face barriers to obtain 
Federal funding for broadband deployment.
    Then I hear from you, and I am not sure that you answered 
any one of those questions, other than, we are entering into a 
proceeding. So can you tell us, and we have 36 seconds left, I 
would just like to hear, first of all, for the record, how you 
are going to deal with all of this on a timeframe that makes a 
regular person living in tribal lands satisfied that you 
understand how urgent this is. That is for the record.
    But in the remaining 20 seconds, can I just at least hear 
from you that you feel, as an agency, a sense of urgency?
    Mr. Webre. I agree, we do as an agency feel a sense of 
urgency. As you may know, this proceeding is taking place in 
the Wireline Competition Bureau. I am the Chief of the Consumer 
and Governmental Affairs Bureau. So I don't have the expertise 
in order to provide you with a valid response.
    But I can certainly go back to the Commission, and we can 
have a more fulsome answer for you.
    Senator Schatz. Thank you.
    Senator Udall. Senator Schatz, if you want to get a full 
answer from your question, that would be fine.
    Senator Schatz. I don't think I am going to get a full 
answer, but I appreciate that. Thank you.
    Senator Udall. Okay, thank you. I couldn't agree with 
Senator Schatz more, Mr. Webre, I think it is important that 
you take these questions back and you answer them seriously, 
and you indicate to all the folks who are interested here that 
you really intend to solve this. I think the GAO has laid it 
out in a pretty dramatic way.
    The FCC's process of data collection is skewed. We don't 
have any doubt about that, do we, Mr. Goldstein? I mean, it is 
a skewed process?
    Mr. Goldstein. That is correct, sir. Two years ago when I 
appeared before the Committee, I mentioned that we believe that 
that was the case, and these reports certainly show that it is 
so.
    Senator Udall. This is one where the industry controls the 
data, and has all the power. And when tribes do challenge the 
data, it is costly, it is time-consuming, and Indian Tribes 
don't often win.
    Mr. Goldstein. They almost never win, sir. In fact, from 
our information, they do not.
    Senator Udall. Your report mentions needing a formal tribal 
engagement process that allows for meaningful tribal input as 
part of the FCC's data collection. Can you expand on that 
suggestion and what you think ought to be happening?
    Mr. Goldstein. Yes, sir. I think it is a three-pronged 
process. I think that the FCC does need to be more involved in 
understanding exactly where the maps are not accurate. They do 
not verify the information that is provided by providers. They 
do some logic checks and the like to see if previous 477 
submissions are similar to what they have now and make sure 
there are no large gaps.
    But it is really left up to the provider to, as you said, 
sir, to be able to provide information. The FCC pretty much 
takes it at face value. Tribes really do not have an 
opportunity to submit information to that process. And when 
they do try to challenge the information, they are rarely, if 
ever, successful.
    Senator Udall. You said three parts, right?
    Mr. Goldstein. Being the FCC, the providers and the tribes. 
They all need to work more closely. There does need to be a 
more formal process to engage all the groups. It may be that 
some kind of, there is a discussion about proceedings, but 
proceedings take years to, typically, for FCC, to complete. I'm 
saying there is no time frame or time limit, goals to when this 
particular proceeding is to be completed.
    Senator Udall. Yes. And Mr. Webre, there is no doubt that 
the maps are not accurate?
    Mr. Webre. We feel that the maps are accurate in that they 
show where it is clear that there is no broadband availability, 
in those census blocks. So we know it is clear in that regard. 
We know we can do better on the other part of it, where there 
is partial deployment in census blocks.
    Senator Udall. Mr. Enjady and Mr. Blackwell, what are the 
two most important components necessary for the FCC to develop 
a successful formal tribal engagement process?
    Mr. Enjady. Thank you, Senator Udall. One of those 
processes would be to designate a, find a person that actually 
will engage the company that they're getting data from, or 
working with some of the larger companies. I know one time when 
they sent a letter, it goes to a tribal nation and they check 
off a box and it is done. But nothing comes back, because 
sometimes the tribes are kind of wondering exactly what is 
going on there.
    I know a lot of tribes, we were just at an NTTA meeting 
Monday. I was talking to the folks at REDINet, and I said, have 
you guys seen any tribal engagement, were you asked these 
questions? Have you seen that at Pojoaque, have you seen that 
at San I, or any of these other pueblos there? And they said 
no, we haven't really seen it. That shows to me clearly that 
the companies that are larger are just throwing a letter, and 
if they get word back, it's check the box, we made engagement.
    And that is true, that is something that we talked about 
yesterday in Pojoaque, at our NTTA meeting. So these are some 
of the issues that we need to do a little bit better job, some 
kind of self-certification from the tribes, showing that there 
was engagement, showing a letter saying that the tribes are 
working together.
    I think more communication is needed. Instead of just 
checking a box, we need to be able to talk, just like we are 
today, to make things be made aware. I know some people are 
trying to do the best they can, but like I said, at times like 
we are, we are short-staffed, less funding means less smaller 
companies. We are not able to do all these things. With 
Lifeline and all these other issues, we have become social 
workers. We have had to go out and hunt these guys down.
    And it helps me out to get these Lifeline people, get them 
on Lifeline to get more customers, to be able to provide the 
broadband services. But it is just--we are small, so we are 
trying to do the best we can. And I hope that clarifies a 
little bit of what the tribes need to be able to get to do 
this.
    Senator Udall. I think it does. I think you are talking 
about a really meaningful step and meaningful engagement with 
the tribe for the provider to try to really understand what is 
going on on the ground.
    Mr. Blackwell?
    Mr. Blackwell. Thank you for the question. If I may, I 
would like to take some time to be able to supplement the 
record and follow up.
    Senator Udall. Please do.
    Mr. Blackwell. But off the top of my head, there are two 
things that jump immediately to mind. The first is, as a part 
of an overall effort to dedicate a tribal budget, a 
consultation budget at the FCC for these efforts. That would be 
sort of an overarching thought. More granular at this point in 
time, I think clarification, the need for the raw data. Tribal 
nations need the raw data, so clarify that there shouldn't be 
redactions, or NDAs that need to be signed.
    Beyond that, I do believe that there is, to create a 
mechanism within the FCC, so that the data, as it comes and can 
be analyzed by the FCC, to create sort of a map of issues on a 
tribe-by-tribe, region-by-region basis. I testified that the 
digital divide now is very different from 20 years ago. Where 
things have worked, it has necessarily created greater 
challenges in other areas.
    So if there are issues here that have to do with terrain or 
affordability, or if there are issues here that have to do with 
spectrum opportunities and other things, that the Commission 
can have the tools to start addressing those at a granular 
level. Thank you.
    Senator Udall. And when you say the tribes need the raw 
data, Mr. Enjady, do you agree with that?
    Mr. Enjady. It does. But when they get the raw data, is 
there anybody at the tribe that can decipher this information? 
What does it really mean to them? What do we need?
    All they know is that tribes need better broadband 
services. And it is up to everybody else to hopefully help them 
with that. That is why we are in trust. I mean, we have been in 
trust for so long. So these are some of the things that we need 
help with.
    I, myself, fortunately, was able to go and work for the 
larger phone companies. I came up through the ranks and I was 
able to leave the company and come back to the tribe and help 
them out. I used to work for a large corporation that gave me 
the skills I needed to be able to build a telephone company for 
our tribe. And that is one thing that, there is not a lot of me 
out there. If you look at it, there is only nine recognized 
telephone companies in the United States. There are 573 
recognized tribes. All of them should have telephone companies, 
but they don't.
    So it is a hard thing, it is very difficult. There are a 
lot of barriers in the way that keep tribes from having the 
broadband service they need. It is something that needs to be 
developed, and I think if we work with the tribes together, I 
think we can help them out. I think the FCC, if we work with 
them together, I think they can understand both of us and how 
we can provide information.
    One thing I was always told when I worked with the phone 
company, we are a communication company, but we are the worst 
at communicating with each other. And that has been true, it is 
tough. Thank you, sir.
    Senator Udall. Thank you. Mr. Goldstein, did you have a 
comment on the raw data? I saw you nodding your head, about the 
tribes being entitled to get the raw data?
    Mr. Goldstein. I do think, as Mr. Enjady said, that some 
tribes would be able to, I think effectively use that 
information. Some may not. They may not have all the resources 
and skills they would need. I think it is incumbent, however, 
on the providers, to engage with the tribes on a more regular 
basis, not just checking a box. Some of them we have found 
almost never meet with the tribes and are not really willing to 
not just engage with them but even to provide services where 
they said they were going to provide them. And tribes are 
understandingly frustrated by that.
    Senator Udall. Yes. The first question I asked earlier had 
to do with tribal consultation and it being very important to 
shrinking the digital divide. I really only focused on one 
witness, so I want to expand that to the rest of the panel. 
Does anyone else have any other recommendations on how to 
improve the consultation process, the tribal consultation? Mr. 
Blackwell?
    Mr. Blackwell. Mr. Vice Chairman, as a former regulatory 
attorney, I love this stuff. Godfrey is right, it is complex. 
So one of the key recommendations I would make is that as a 
predicate to consultation that there be trainings, that 
generally that before the Commission asks a question that the 
Commission get out into the field and explain the rules, 
explain the processes. I know the Commission has had success in 
this before.
    The other recommendation that I would make is something 
else that the Commission has done before, is get the senior 
leadership from the bureaus, the decision makers, face to face 
with tribal leaders. That is something the Commission has done 
before with its task force and we look forward to seeing that 
again. Thank you.
    Senator Udall. Great. Mr. Webre, do those sound reasonable 
to you, reasonable suggestions?
    Mr. Webre. Yes, I do think that sounds reasonable, Senator. 
And we do, just to let you know, ONAP does have very close 
relationships with tribal members, as Mr. Enjady had mentioned 
before. We reach out to them on a regular basis. They have our 
direct phone numbers and our email addresses. Any time they 
have questions for us, we are happy to answer them.
    We also go out into the field a lot during the course of a 
year. We do tribal workshops, where we explain the tribal 
engagement obligation to the tribes. Also, if they are 
interested in becoming eligible to become telecommunications 
carriers, we can also provide training on how to do that. We 
are always looking for ways to help the tribes.
    Senator Udall. Thank you.
    Senator Murkowski, if you are ready, I am happy to have you 
go.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I apologize to 
our panel of witnesses, I watched you, Mr. Goldstein and you, 
Mr. Webre, on the TV, so I got some of it. But I didn't receive 
the benefit from you.
    But I want to thank you and the Chairman for having this 
hearing today. It is so incredibly important, as we know. As I 
travel out to rural Alaska and visit with kids, it is really 
great, everyone has a cell phone. But you know what, I would 
venture to say that not only the vast majority but maybe 95 
percent of those kids are not on any plan. It is their camera. 
But their ability to really utilize the technology that other 
children around the Country might have access to is limited.
    I think about the direct impact on how you educate a child. 
Our State has moved to a testing system where you do your tests 
online. I think it was Sand Point, out in the Aleutians, remote 
fishing village out there. And mostly, probably Aleut families. 
System can't maintain itself during the time of testing, the 
system crashes. So okay, we are just going to test one grade at 
a time. System still crashes. What they ended up doing, one kid 
at a time takes the standardized exam until they get through 
every one in the school.
    The impact for us on access to health care, as you know, in 
Alaska, we have been extremely innovative when it comes to 
tele-health. And we make up for the lack of providers in these 
rural communities with our tele-health carts. You can have a 
community health aide on the line with somebody in Anchorage, 
and it is all beautiful, it is all fabulous, except when you 
need it most and everything freezes. When I was out in Unalaska 
and they were demonstrating to me the new infrastructure that 
they have, they said, we have everything except for the piece 
that connects it all together.
    So you don't have reliable health care. You don't have 
reliable education. I was out in the Bering Straits region, and 
we were out in the community of Savoonga, out on St. Lawrence 
Island. There is a lot of maritime traffic that we are seeing, 
as more and more ships are coming through the straits, as we 
are seeing ice freed up. Shipping has increased by nearly 60 
percent in the last eight years.
    But what happens is you don't have the ability to 
communicate with these vessels that are coming through, who are 
trying to basically ensure that there is ship to shore 
communications. In the meantime, what you have are walrus 
hunters, hunters who are out in a 20-foot skiff in open water, 
and you have some big vessel, some big tanker bearing down on 
you. If you don't know what is coming and what is going, some 
of the hunting groups are literally forced to call someone on 
land. They have their sat phone in the boat, they call someone 
on land and then that person calls a vessel tracking service 
provider to find the contact information for the ship before 
they can directly communicate with that vessel to let them 
know, you have whalers in the area, you have walrus hunters in 
the area. So we are talking about some life and death 
situations.
    Let me ask my question, now that I have consumed 
practically my full five minutes. And I think this is for you, 
Mr. Webre, with the FCC. Satellite technology, capable of 
download and upload speeds, but what we are seeing, the latency 
is still too high for deployment and use of critical technology 
that is needed out in many of these villages. Latency over the 
satellite connections, which is what most of our rural villages 
use, is four times higher than the maximum threshold standards 
that are defined by the International Telecommunications Union.
    So the question is, whether or not the FCC is looking at 
revising this official broadband definition, and include the 
latency and packet loss as a broadband benchmark, versus just 
upload, download speeds. I guess the broader question, what do 
you intend to do to address the latency issue?
    Mr. Webre. Senator, thank you for the question. It is a 
very important one. Unfortunately, as Chief of the Consumer and 
Governmental Affairs Bureau, that is not within my area of 
expertise.
    Senator Murkowski. Who would do that, then?
    Mr. Webre. It depends on the technology. It could be our 
Wireless Competition Bureau. It could be our Wireless 
Telecommunications Bureau. It could be our Wireline Competition 
Bureau, or it could be our International Bureau if it deals 
with satellite service.
    Senator Murkowski. I think it is a conversation we would 
certainly like to know, understand a little bit better. Because 
again, we have some issues there where we are not quite sure 
what may be coming. So if we can have some discussion, I think 
that would be helpful.
    Mr. Webre. Absolutely.
    Senator Murkowski. And Mr. Chairman, this may have already 
been asked and answered, and I apologize. But when, and I think 
Mr. Goldstein, I will direct this to you, you had stated in 
your testimony that one of the barriers to increasing access on 
tribal lands is the cost of providers that are deploying 
infrastructure onto tribal lands and that there are a number of 
Federal programs that subsidize broadband deployment in these 
areas.
    But you have expressed concern that the return on 
investment hasn't attracted that private investment. We 
certainly see that. Any suggestions that you can provide in 
terms of what more can be done to encourage these public-
private partnerships for the broadband deployment? We have some 
things that are going on in Alaska that we are excited about, 
but access to capital is a challenge.
    Mr. Goldstein. Thank you, Senator. I think it is no 
coincidence that all of the partnerships that we identified, 
and there were only seven that we were able to identify, there 
may be others out there. But we looked at grants and all the 
Federal funds to try and discern what the partnerships were. 
All of the partnerships that we found, the funds that they 
received came from ARRA, the Recovery Act funds. They did not 
come from current funds.
    So I think you are right in saying that this is an issue of 
capital, and the amount of funding that is going to Indian 
Country may not be sufficient to entice providers. As we 
indicated earlier in our testimony, of all the funds that are 
provided by the FCC and by RUS, just a very small fraction of 
those funds have actually gone to tribal lands.
    Senator Murkowski. It just seems like it's such a challenge 
because in so many of these areas, you're remote, so you are 
truly, in Alaska, we are literally at the end of the line. Of 
course, we know how expensive that is.
    But the areas that you're serving, the population base is 
so small. So how is that attractive to anybody from an 
investment perspective? So you recognize the challenge but you 
don't have a super-duper great answers on how we can attract 
it.
    Mr. Goldstein. I would probably be in a different line of 
business if I knew that.
    Senator Murkowski. Yes, we all would.
    [Laughter.]
    Senator Murkowski. I thank you. Mr. Chairman, I have well-
consumed my time. I appreciate the Committee working on these 
issues, because it does make a big difference in terms of how 
we can help to provide opportunities around Indian Country. If 
you are not in the same field, it is really pretty tough to 
play the game. So thank you, sir.
    Senator Udall. You are absolutely right.
    Mr. Webre, are you happy to take her question back to the 
proper bureau and get an answer for us on the one she asked?
    Mr. Webre. Yes, Senator, I would be happy to do that.
    Senator Udall. That would be great.
    Mr. Webre. And if I could make a distinction, a point.
    Senator Udall. Yes, please do.
    Mr. Webre. We have heard today about the GAO's second 
report on partnerships and how less than 1 percent of the FCC's 
funding has gone to tribes. I think what that really means is 
less than 1 percent of the funding has gone to tribally-owned 
entities. There are plenty of privately-owned entities that 
aren't affiliated with the tribes that are serving broadband in 
these tribal communities.
    So I do think that number is much higher. Thank you.
    Senator Udall. Will you get us a proper answer under the 
criteria you are laying out?
    Mr. Webre. We can certainly look into that data for you, 
sir, yes.
    Senator Udall. Senator Murkowski, if you have any 
additional questions, please, go ahead.
    Senator Murkowski. I was just looking at some of the 
information that I have here. It says that, as you mentioned, 
GAO found that less than 1 percent of FCC funding, about 14 
percent of RUS funding, went directly to tribes and tribally-
owned providers. Combined, FCC and RUS funding totaled $34.6 
billion during that time period, and tribes and tribally-owned 
providers received $235 million, or about .7 percent.
    So I think it does speak to the real challenge that we face 
here.
    Mr. Webre. To be clear, again, that is tribally-owned.
    Senator Murkowski. Tribally-owned, right.
    Mr. Webre. There are plenty of private providers who are 
out there providing service.
    As a matter of fact, the Connect America Fund Phase Two 
option just took place and the preliminary numbers are in. Over 
80,000 of those bidders, 80,000 tribal areas, will be covered 
by Connect America Fund Two funding. And some are going to be 
serviced by tribally-owned entities, and we will work with them 
to get ETC status, so they can provide those broadband 
deployment funds to their areas.
    Senator Murkowski. Mr. Chairman, Mr. Enjady had something.
    Mr. Enjady. One thing I wanted to add to that, on the 
portion of funding that you are talking about, especially grant 
money, there is a lot of money out there for grants and the 
ARRA is one of the things that you guys talked about.
    But the biggest thing that I have seen come back to us from 
our NTTA members is that when they took that ARRA money they 
lost a lot of their sustainable funding come from the FCC. So 
that's the biggest thing is, once you build it, you have to 
maintain it. Most tribes don't have that ability to do that. 
The high cost fund is one of the mechanisms that was used to 
provide funding for that to keep sustainability moving forward.
    But a lot of that has been reduced, and we have a hard cap 
on us, for small ILECs like us. There is also a budget control 
mechanism that is involved in that, that keeps us from getting 
all the funds that we need. There has been a catch-up fund that 
the FCC has instituted to kind of get us caught up. But moving 
forward, that still has to be in play for us to be able to 
provide the services that we need. We build these networks, but 
we have to maintain it, make sure the fiber is maintained. 
Today I had a fiber cut in Mescalero. So I have to roll people 
out there, have to get things fixed. These are some of the 
things that we have to pay for as we keep moving forward. We 
hope they will keep that funding up and cumulative for us who 
use it and take the needs that we need out of it.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Udall. Thank you, Senator Murkowski, for your 
excellent engagement here.
    Among the many obstacles to closing the digital divide in 
Indian Country is the FCC's Eligible Telecommunications 
Carrier, or ETC designation. Tribes must receive this 
designation to be eligible for FCC funds. Mr. Goldstein, the 
GAO report makes clear that ETC designation is not just a 
burden, but has prevented many tribes from acquiring FCC 
funding.
    Would you say the requirement of being designated an ETC is 
having a disparate impact on tribes to receive more Federal 
funding?
    Mr. Goldstein. Yes, Senator, it is. And I know that FCC has 
looked at this issue in the past, to try to determine whether 
they could provide tribes with this kind of a distinction, and 
if you could provide universal service funds without it. They 
pretty much found that they could not. So this is really a 
statutory impediment in many ways. It may be something that 
Congress wants to look at over time to see if the 1996 Act 
perhaps could be changed so that there would be more tribes 
that could be involved in this way.
    Senator Udall. And as a policy matter, do you think that 
might be a good idea?
    Mr. Goldstein. I think that Congress should look at it. We 
have not actually made it as a specific recommendation in terms 
of doing the work. But I do think that we are looking at a 
fairly antiquated process at this point. The 1996 Act really, 
it was mainly telephone companies that got the ETC 
designations. And of course, today, the high-cost program now 
involves broadband. So the landscape has changed radically 
since the Act was passed.
    Senator Udall. Mr. Webre, how can the FCC improve the 
process for tribes applying to become an ETC?
    Mr. Webre. We always, through ONAP, work with the tribes, 
if they are interested in becoming eligible telecommunications 
carriers. We have a training program, we do outreach to them. 
We go out into the tribal areas and do workshops. So we talk 
about how you can become an ETC.
    What Mr. Goldstein said is correct, it is a statutory 
obligation. There are rules that we can't really change in 
order to help the tribes become ETCs. So that is kind of where 
we are in the process.
    Senator Udall. Now, for the overall panel, what practical 
recommendations are needed to help tribes access this Federal 
funding? I don't know if, Mr. Enjady, or Mr. Blackwell, you 
want to weigh in?
    Mr. Enjady. I couldn't hear that.
    Senator Udall. What practical recommendations are needed to 
help tribes access this Federal funding, the Federal funding 
that comes through the ETC?
    Mr. Enjady. Mescalero Apache Telecom is probably one of the 
last tribal telecoms to become an ETC. And that was back in 
2001. Other than that, I don't think there's any other tribal 
nations that have applied formally, like I did. I think there 
are two right now that are pending. One is the Warm Springs 
Tribe, and they are trying to become an ILEC with ETC.
    Now, there are certain levels of the ETC, if you didn't 
know that. There is one that is a competitive ETC, CETC and a 
regular ETC. That keeps you from getting the funding that you 
need for your area.
    This is the sustainability portion that I was talking about 
earlier. This is what keeps the funding coming to us to be able 
to provide the services in the rural areas. Because we have no 
customers out there. For every mile of cable that we throw out 
there, or fiber, it costs us anywhere from $40,000 to $60,000 a 
mile. And with that in place, and I have two customers on that 
mile, how long will it take me to recover that funding?
    So there is a mechanism at the FCC that helps me borrow 
that money and be able to get the money back, that return on 
investment, the ROI. So it is very difficult. So we need to be 
able to get the funding needed for us.
    But again, CETC, you don't get all that funding, and you 
don't get the full funding. But with the new CAFE II funding, 
that is a ten-year program, that funding will be made available 
even if you are just a CETC or ETC, it doesn't matter. So that 
is a process that is happening right now. I am sure there is a 
few of our providers that have gotten awards for that. So we 
are looking to see how that is going to work out.
    Senator Udall. Mr. Blackwell, any thoughts on this?
    Mr. Blackwell. Yes. This is a very important area of the 
regulations. It was one of the first areas I really dove into 
in 2000, when I first went to work at the FCC. In fact, I 
worked on Godfrey's and MATI's ETC designation.
    Recently, the Commission has done ETC designations, in the 
last 10 years, Hopi Telecom, Standing Rock, Navajo Tribal 
Utility Authority Wireless. But as far as practical 
considerations, as long as the applications are complete, I 
think one could ask for a streamlined process at the FCC. There 
are many priorities at the FCC. One could ask the FCC to make 
this a top priority, ETCs on tribal lands, and ask the 
Commission to dedicate staff to the effort. The Bureau is very 
busy at all times, the Wire and Competition Bureau.
    Perhaps another thought is developing a template for ETC 
designations, almost as a technical training method.
    But I do want to make a point, I want to be respectful of 
your time. My experience tells me I need to be bold here. I do 
agree with what Mr. Goldstein said, there is a statutory 
question here. We are talking about access to, Godfrey 
mentioned the high-cost fund. Well, the high-cost fund, for 20 
years, has been pumping $4 billion into this situation, and we 
have only come this far.
    This is a question of capital. And no critical 
infrastructure has come to Indian Country without significant 
Federal investment and oversight and regulation. So it is time 
for a new authority for the Commission, a new direction, new 
authorities. It is time for a tribal broadband fund. This has 
been a recommendation that has been coming from the lips of 
Indian Country for a decade now, and I am only reiterating what 
my committee told Chairman Pai this past February.
    I will see a question about ETC, and I will raise you one 
tribal broadband fund.
    Senator Udall. Right, thank you. Thank you for that bold 
recommendation.
    Mr. Enjady, your telcom is in a unique position. MATI is 
not only a part of the telcom industry, but also responsible 
for serving Indian lands, which means that if the FCC requires 
more data, that task will fall on your shoulders.
    How can the FCC both require more granular data like 
latitude and longitude of service areas, but avoid imposing 
such burdensome requirements that you spend all your time with 
paperwork?
    Mr. Enjady. Thank you, Vice Chairman Udall. Thank you for 
the question.
    I think if we can, and I know the FCC is short-staffed in a 
lot of areas. But if we can make, like Geoffrey was saying, a 
template, to come out and be able to go with us, place to 
place, and provide the data that we need, especially going 
house to house.
    Now, as you know, Indian Country is in desperate need of 
housing. We have so many families, multiple families living 
under one roof. So it is a big issue that is happening right 
now. Do we divide those homes up? Just getting more homes in 
Indian Country is tough. Our population is growing and we need 
more homes.
    With that comes broadband, too, being able to communicate 
and do what we need to do as we provide these services. It is 
difficult in this situation of getting to provide the services 
that we need. I would just like to say that, please come out, 
talk with us. NTTA as a whole would welcome FCC to come out and 
work with us and be able to develop these templates that I talk 
about, and be able to work and get the granular data that they 
need.
    Looking at the census block as Mr. Goldstein pointed out, 
when one entity or person or home has broadband, the whole is 
counted as having broadband. It is quite skewed. So we need to 
go house to house, and we can provide that data right now. That 
is part of the RUS mapping. Once you become, since you cannot 
collateralize tribal lands and go out to a conventional bank 
and get money, RUS has been our banker. So they require 
different information. They have an area of coverage map that 
could be probably applied to, that could be used on that side.
    There are different ideas that we have that we can work 
together. But we just need to get together and do it in the 
first place.
    Senator Udall. Yes. Mr. Blackwell, you also sit in a unique 
position, having worked for the FCC and now with Indian tribes. 
In your experience, what can the FCC do to make sure everyone 
has the best available data?
    Mr. Blackwell. Thank you very much for the question, Mr. 
Vice Chairman. I think one of the first things FCC can do is 
create a formal intake process. The other is really to get the 
right folks in the carriers and in the tribal nations talking 
to each other, the mapping folks, the IT folks, the GIS folks. 
Folks who have much better technical expertise than I do in 
that area, maybe the folks who do the sales and marketing and 
maybe make the attorneys sit on the outside of the meeting, so 
that folks can really begin to engage on what the data means. 
Of course, the predicate being that tribes receive the data and 
get some training on how to analyze it.
    I would, if I may, I would like some time to be able to 
think about the answer and follow up with you, sir.
    Senator Udall. The record will be open for two weeks. For 
all of these questions, you will have the opportunity to get 
information in the record.
    Nearly one-third of the kids in New Mexico are at risk of 
falling behind in school, simply because they can't get on the 
internet at home. It is past time to end the homework gap in 
New Mexico and in all of Indian Country. That is why I 
introduced S. 2958 earlier this year, to push the FCC to look 
for more innovative solutions, like putting wi-fi on school 
buses as part of its work with the E-Rate program to get 
students connected.
    It is also why I was alarmed to see that the two E-rate 
specific recommendations from the GAO's 2016 report on tribal 
broadband have not been addressed. To make sure E-Rate is 
reaching students in Indian Country we need to know that the 
FCC is not still using junk data to track tribal applications.
    Mr. Goldstein and Mr. Webre, has the FCC made any progress 
addressing these two recommendations?
    Mr. Goldstein. Senator Udall, I will get back to you 
specifically on that. We have not looked, we do follow up on an 
annual basis and I am happy to get back to you for the record.
    But one thing I would mention is we have just begun work 
for the Congress. It is a mandate that was recently passed, in 
which we are examining exactly what you are looking at and 
talking about, which is low-income education. We have already 
identified some examples where we are going to go out and take 
a look at kids who are able to complete their work on school 
buses and things like that. We have ongoing work in this area.
    So we will hopefully shed some additional light on this.
    Senator Udall. Thank you. Mr. Webre?
    Mr. Webre. Yes, Senator. As a result of the GAO's open 
recommendation that the FCC improve the reliability of FCCD 
data related to institutions that serve E-Rate defined tribal 
program applications, beginning in funding year 2017, year 
after the GAO recommendation was given to us in 2016, we did 
implement that recommendation. Specifically, the E-Rate forms 
now include guidance about when a school or library should 
identify itself as tribal. USAC has greatly enhanced its method 
for collecting this information by improving the tribal 
checkbox in USAC's system.
    In addition, USAC's tribal liaison encourages tribal 
applicants to check this box so that USAC can better understand 
who is participating in the E-Rate program and provide tribal 
outreach and training, and assess those outreach and training 
efforts. The funding year 2017 ended in June 30th of this year, 
and applicants are all still submitting their invoices. So we 
haven't had a chance to look at a fulsome record yet. But we 
are encouraged by this development and we look forward to 
getting that information.
    Senator Udall. Mr. Webre, when exactly will this Committee 
see accurate data from the E-Rate program about its work in 
tribal lands?
    Mr. Webre. We do think within a short period of time, 
Senator, once we get all the 2017 funding year invoices in.
    Senator Udall. That is good. We will be looking forward to 
that.
    For Mr. Blackwell, would allowing more flexibility at E-
Rate for innovation, like putting wi-fi on school buses, help 
address the digital divide in tribal schools faster?
    Mr. Blackwell. Yes, absolutely. There are thousands of 
tribal children who ride long bus rides back and forth to 
school. The thing that I think of when I hear your question is, 
so many places in Indian Country I have seen kids sprawled out 
after hours in a parking lot next to a tribal headquarters or 
tribal library trying to catch the spillover wi-fi.
    If E-Rate were able to put wi-fi in buses, it would just 
simply extend the classroom. I think that is a good idea. Now, 
the bus driver might have to block some social media.
    [Laughter.]
    Mr. Blackwell. But yes, I think it is a great idea. I can't 
think of a single tribal educator I have ever met that would 
disagree.
    Senator Udall. Great. Let me just close here by thanking 
all of the witnesses. I don't think there is anything more 
important in Indian Country than getting Indian Country 
connected to the rest of society and the world. So this has 
been a very, very important hearing. I really appreciate 
Chairman Hoeven for focusing in on this and working with me on 
it.
    If there are no more questions for today, members also may 
submit follow-up written questions for the record. The hearing 
record will be open for two weeks. I want to thank the 
witnesses for their time and testimony.
    The hearing is adjourned.
    [Whereupon, at 4:21, the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Thomas W. Ferree, Chairman/CEO, Connected Nation
                         summary of key points
  <bullet> As the single largest grantee under the SBI program, 
        Connected Nation (CN) managed broadband mapping and planning 
        projects across 12 states and 1 territory (spanning 42 percent 
        of the U.S. landmass).

  <bullet> Accurate and granular broadband mapping is one of the most 
        critical tools in developing sound broadband policy to close 
        the digital divide.

  <bullet> While our mapping efforts have been highly successful, the 
        SBI program as a whole faced a number of challenges, and the 
        current Form 477 data collection process is deficient in at 
        least five significant ways.

  <bullet> We believe any future broadband mapping effort must 
        prioritize the accuracy and granularity of broadband maps at 
        the street or parcel level of detail but must also prioritize 
        the protection of providers' proprietary and confidential 
        information that may be used to derive more granular coverage 
        footprints.

  <bullet> A viable and effective path forward would be for Congress to 
        establish a single, independent, third-party clearinghouse for 
        broadband data collection and mapping. This clearinghouse would 
        have responsibility for carrying out five (5) primary tasks:

        1)  Broadband data collection and analysis, working with the 
        service provider community through a rigorous non-disclosure 
        agreement framework;

        2)  GIS mapping of broadband availability and speeds, derived 
        from infrastructure and subscriber data submitted by service 
        providers, at the street or parcel level of detail;

        3)  Processing feedback submitted by consumers and other 
        stakeholdersto highlight areas of concern on the map-areas that 
        may need refinement;

        4)  In-field validation of the maps once they are produced, 
        driven primarily by the public feedback received, to ensure 
        continual refinement of the maps over time; and

        5)  Mapping where federal funding will result in network 
        buildout, to ensure that there is no duplication of support for 
        the expansion of service among the various federal programs 
        that invest in broadband.

Introduction
    Chairman Hoeven, Vice Chairman Udall, and members of the Committee, 
thank you for inviting me to share Connected Nation's insights in this 
important proceeding this afternoon. My name is Tom Ferree and I serve 
as Chairman and CEO for Connected Nation, a national non-profit 
organization with a 17-year history of measurably improving lives and 
strengthening communities through increased access to, and adoption of, 
broadband and related technologies.
    Headquartered in Bowling Green, Kentucky, Connected Nation's work 
has impacted more than 30 states, and we served as the nation's single 
largest grantee under NTIA's State Broadband Initiative (SBI) grant 
program. Under SBI, we managed broadband mapping and planning projects 
across 12 states and 1 territory, representing 42 percent of the U.S. 
landmass, and our mapping and data validation techniques have been 
widely recognized as ``best practices'' by NTIA, the FCC, and others. 
Connected Nation also has a long history working at the grassroots 
level in more than 600 communities through initiatives like our 
Connectedsm Community Engagement Program, in which we help local 
leaders build comprehensive technology action plans for their 
communities. \1\
---------------------------------------------------------------------------
    \1\ http://www.connectednation.org/get-connected
---------------------------------------------------------------------------
    Our work is also extensive in tribal communities. Since 2013, 
Connected Nation has traveled expansively through Indian reservations 
and tribal villages from west of the Mississippi River to the 
westernmost portions of the Aleutian Islands in Alaska to test, 
validate, and map broadband coverage. Mobile drive testing, conducted 
as part of the FCC's Mobility Fund Phase I and outside plant audits 
conducted during the SBI program witnessed firsthand the challenges 
facing tribes as they struggle to gain access to even the most basic 
broadband service. In addition to mobile drive testing and ``in-the-
field'' infrastructure verification, we also played a key role in 
completing an inventory of school connectivity assets in every school 
across all 53 of Alaska's public school districts, spending numerous 
hours and resources on areas with largely indigenous populations. Many 
of the areas in Alaska, some only accessible by boat or plane, 
dramatically illustrated how the most rural of Native Americans, 
including students, are being left on the wrong side of the digital 
divide.
    Connected Nation's experience on the ground in these communities 
has helped us develop an intimate understanding of the impact that 
broadband has on rural and tribal areas, and there can be no doubt that 
accurate and granular broadband mapping is one of the most critical 
tools in developing sound broadband policy to close the digital divide. 
Unfortunately, the existing broadband maps are inaccurate, are 
overstated, and largely misrepresent available connectivity in tribal 
communities today, as noted in a recent Government Accountability 
Office (GAO) report released in September.
    We believe strongly in the importance of accurate and granular 
broadband data collection and mapping for three reasons:

        1)  To inform better decisionmaking on where public resources 
        should be invested to support broadband buildout,

        2)  To avoid potential overbuild situations where service may 
        already be available at a comparable speed and cost, and

        3)  To ensure accountability for the ratepayer and taxpayer 
        dollars once public investments have been made.

    Today, we look forward to discussing the successes and lessons 
learned from our experiences with broadband mapping as well as the 
current Form 477 data collection process administered by the FCC. Our 
intent is not to be critical, but rather to foster an understanding of 
how we believe the process could be improved for the future to best 
represent coverage in rural and tribal areas.
Lessons Learned from the SBI Mapping Program and the Form 477 Process
    The SBI Program, which was created by the Broadband Data 
Improvement Act of 2008, states the opportunity to, among other things, 
establish a broadband mapping program and submit broadband data to NTIA 
twice a year from 2010 through 2014. This data was used to create the 
nation's first comprehensive national broadband map in 2011, which 
unfortunately has not been updated since the program ended in 2014. \2\ 
Connected Nation was selected by 12 states and 1 territory to collect, 
process, analyze, and map broadband data, while also collecting 
feedback from the public on where revisions should be made. \3\
---------------------------------------------------------------------------
    \2\ https://www.broadbandmap.gov/
    \3\ Alaska, Florida, Illinois, Iowa, Kansas, Michigan, Minnesota, 
Nevada, Ohio, Puerto Rico, South Carolina, Tennessee, and Texas.
---------------------------------------------------------------------------
    Throughout the SBI Program, Connected Nation averaged provider 
participation rates of 95 percent across our states, despite the fact 
that this program was largely voluntary. This was primarily due to the 
emphasis we placed on provider relationship-building, as well as our 
willingness to accept information in whatever format it was available 
and to assist providers who needed help. By 2014, we had established 
data-sharing relationships with more than 1,200 unique broadband 
service providers of all sizes, with non-disclosure agreements in place 
with many of them to ensure protection of their proprietary and 
confidential information.
    While our mapping efforts were highly successful, the SBI program 
as a whole faced a number of challenges. Since every state had its own 
mapping agency or third-party partner, this meant that multiple 
methodologies were employed in collecting provider information, 
analyzing the data, and mapping the results. This also meant that 
providers, many of whom operate in more than one state, had to juggle 
not only multiple points of contact and data requests, but they had to 
report their information in varying ways to satisfy those requests.
    Additionally, known best practices, such as those we developed to 
represent mobile and fixed wireless coverage propagation, were not 
required to be adopted across all states. For example, fixed wireless 
coverage in some states continued to be represented as full circles or 
drastic polygons that did not reflect the true coverage on the ground. 
Unfortunately, some of these inaccuracies persist even today in the 
Form 477 data being submitted to the FCC.
    As the SBI program transitioned to the Form 477 filing process in 
October 2014, we began mapping and refining this data for state 
partners that have chosen to continue their mapping programs. 
Unfortunately, a number of challenges remain:

        1)  Form 477 requires providers to report census blocks where 
        they provide service. If even one household in a given block is 
        served, the entire block is considered as having service, 
        resulting in a significant overstatement of availability. This 
        is particularly problematic in rural areas where census blocks 
        can be very large--some being larger than the entire state of 
        Connecticut. Yet these are the areas where broadband 
        availability is most lacking and needs to be most accurately 
        defined.

        2)  Since some providers rely on third-party vendors to compile 
        Form 477 data and the filings are primarily in .csv (comma-
        separated values) format, providers that do not have GIS 
        (geographic information system) capabilities have no way of 
        visualizing their service territories to ensure accuracy, 
        resulting in overstated or understated reporting.

        3)  Some known providers from the SBI years are simply missing 
        from the Form 477 dataset, meaning that they are likely not 
        filing as required.

        4)  Wireless coverage during the SBI years (when properly 
        mapped) was developed from propagation modeling based on tower 
        locations and signal penetration. Under Form 477, however, 
        wireless coverage is reported by census block just like any 
        other type of fixed service, indicating areas as served where 
        there may actually be no service for miles.

        5)  Missing data and inaccurate filings also may have the 
        effect of understating service capabilities, putting the 
        providers themselves at risk for overbuild, since Form 477 data 
        is now used to direct federal subsidies toward areas lacking 
        robust broadband.

A Path Forward
    Taking into consideration these lessons learned, Connected Nation 
would like to offer a few observations and recommendations regarding 
the future of broadband mapping and how we can make sure our rural and 
tribal areas are well represented. First, any future mapping effort 
must prioritize the accuracy and granularity of the maps themselves to 
ensure that the nation's broadband landscape is fully understood at the 
street address or parcel level of detail. Census block data is not 
sufficiently granular as we look to solve the broadband gap in rural 
and other insular areas of the United States.
    Second, that level of granularity requires the protection of 
providers' proprietary and confidential information. Such protection is 
needed to safeguard critical infrastructure from vandalism, sabotage, 
or worse, and to preserve the confidentiality of competitively 
sensitive infrastructure and subscriber information, which should 
remain closely held.
    Third, any future mapping effort must be premised on a uniform 
reporting mechanism to eliminate inconsistencies in state-by-state 
reporting. That uniformity in reporting will provide decision-makers 
the high level of confidence needed to target federal funding to 
broadband deployment projects and a piecemealed approach to data 
collection will not achieve the end goal of a comprehensive, reliable, 
and granular map.
    We are aware that concerns have been raised in the past that more 
granular data cannot or should not be collected, either because doing 
so could present an increased burden (and unfunded mandate) on 
providers, or because the collection of such data would require 
government access to infrastructure and/or subscriber location data 
that the government has no business possessing. We agree that these are 
legitimate concerns but posit that a viable solution exists that would 
yield a more granular understanding of service availability, while 
protecting the confidential and proprietary nature of the data that 
would be used to produce it.
    As Congress considers funding and other incentives to promote 
broadband deployment, we believe it should also consider establishing a 
single, independent, third-party clearinghouse for broadband data 
collection and mapping that is accountable to Congress, the FCC, the 
public, and the provider community, and it should cover all 50 states, 
the 5 inhabited U.S. territories, and the District of Columbia. This 
clearinghouse would have responsibility for carrying out five (5) 
primary tasks:

        1)  Broadband data collection and analysis, working with the 
        service provider community through a rigorous non-disclosure 
        agreement framework;

        2)  GIS mapping of broadband availability and speeds, derived 
        from infrastructure and subscriber data submitted by service 
        providers, at the street or parcel level of detail;

        3)  Processing feedback submitted by consumers and other 
        stakeholders to highlight areas of concern on the map-areas 
        that may need refinement;

        4)  In-field validation of the maps once they are produced, 
        driven primarily by the public feedback received, to ensure 
        continual refinement of the maps over time; and

        5)  Mapping where federal funding will result in network 
        buildout, to ensure that there is no duplication of support for 
        the expansion of service among the various federal programs 
        that invest in broadband.

    To be clear, Connected Nation believes that broadband service 
providers have a reasonable expectation that their proprietary and 
competitively sensitive infrastructure and subscriber data should be 
protected from disclosure. The good news is that the public disclosure 
of such information isn't necessary to serve the public interest. 
Instead, that information could be protected and analyzed by a single 
non-government clearinghouse entity to derive broadband coverage and 
speed capabilities without revealing the more sensitive characteristics 
of any given network. Connected Nation has proven throughout its 
history that a neutral, third-party aggregator of infrastructure data 
can both hold that information tightly and produce accurate and 
granular coverage maps from it--maps that are much more accurate than 
the current Form 477 process yields.
    Another important function that a clearinghouse entity should play 
is on-the-ground field validation of coverage in geographic areas that 
warrant additional scrutiny, as well as areas where federal dollars are 
being invested to build out new infrastructure. This should involve the 
deployment of network engineers to visit communities, visually inspect 
infrastructure assets, conduct drive-testing of wireless networks, and 
make coverage adjustments to the maps accordingly. The public should 
also play an important role in providing feedback on the map, and their 
feedback should be used to both engage providers in refining coverage 
depictions, as well as helping to determine where field audits should 
take place.
    We hope that Congress will consider a clearinghouse as a path 
forward to serve the public interest by informing federal 
decisionmaking on infrastructure investments, ensuring accountability 
for those dollars as they are spent, and protecting sensitive provider 
data all at the same time. By facilitating accurate and granular 
mapping, Congress can ensure that broadband on tribal lands is properly 
depicted and future federal efforts to close the digital divide are 
aptly targeted. We look forward to answering any questions that you may 
have.
    Thank you.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Geoffrey C. Blackwell
Tribal Priorities for FCC
    In your testimony, you discussed the importance of FCC 
understanding tribal priorities on the ground level. You discussed a 
dedicated tribal budget and accessibility to correct data to understand 
the broadband access challenges in Indian Country. You also mentioned 
potentially writing a letter to the FCC regarding the importance of 
tribal access to broadband.
    Question 1. How else can the Committee be helpful to ensure the FCC 
prioritizes tribal needs and funding?
    Answer. I am happy to provide a bold answer to this question. I 
have been working in this arena for almost twenty years and, as I 
stated in my oral testimony, what I have learned about the challenges 
of the digital divide in Indian Country in those twenty years has 
taught me to be bold in my proposals. I firmly believe that Congress 
should create a Tribal Broadband Fund to, finally, spur infrastructure 
deployment on Tribal lands and in Native communities. This is not a new 
proposal, but it has new potential. The federal government and the 
Federal Communications Commission (``FCC'') have been supporting the 
telecommunications industry with billions of dollars a year through the 
Universal Service Fund programs, including the High Cost Fund (also 
known as the Connect America Fund) and the Lifeline program. These 
billions have only brought us this far in Indian Country. When we learn 
what the actual figures are on broadband deployment in Indian Country, 
after the corrections are made in response to the GAO findings on the 
data being inaccurate, there will be an even greater impetus to focus 
on the problem that these currents programs have not, cannot, solve.
    It is time for a new program--a targeted program with bold 
priorities to bring connectivity where the U.S. has not previously been 
able to bring it. It is time for a Tribal Broadband Fund, a program 
dedicated to actually delivering on the proverbial promise to Indian 
Country. Done well, the Tribal Broadband Fund will make all the 
difference and go a long way toward articulating both the federal 
government's commitment to, and faith in, Indian Country.
    Again, this is a not a new proposal. It was needed before, but now 
its time has really come. Indian Country first coalesced around this 
proposal in response to the federal calls for input on a national 
broadband plan in 2009. The FCC accepted this input and first supported 
this recommendation in its 2010 National Broadband Plan, when it said:

         Recommendation 8.18: Congress should consider establishing a 
        Tribal Broadband Fund to support sustainable broadband 
        deployment and adoption in Tribal lands, and all agencies that 
        upgrade connectivity on Tribal lands should coordinate such 
        upgrades with Tribal governments and the Tribal Broadband Fund 
        grant-making process.

    Acknowledging the ``unique connectivity challenges'' facing Indian 
Country back in 2010, the FCC went on to explain this recommendation by 
stating that support from a Tribal Broadband Fund ``would be used for a 
variety of purposes, including bringing high-capacity connectivity to 
Tribal headquarters or other anchor institutions, deployment planning, 
infrastructure buildout, feasibility studies, technical assistance, 
business plan development and implementation, digital literacy, and 
outreach.''
    While much progress in broadband connectivity has occurred in 
Indian Country since 2010, the most recent broadband deployment 
statistics on Tribal lands remain appalling. According to the GAO, the 
statistics are actually worse than the reports indicate. As I stated in 
my testimony, the most recent FCC data, contained in its 2018 Broadband 
Deployment Report and released in February of this year, shows that 
Tribal lands continue to be left far behind from receiving the advanced 
services envisioned by Congress. For example, 36 percent of residents 
of Tribal lands lack access to fixed broadband service at the FCC's 
benchmark speed of 25 Mbps downstream/3 Mbps upstream (``25/3''), as 
compared to 7 percent nationwide. And the disparity grows even more 
striking on Tribal lands in rural areas, where 59 percent of residents 
lack access to what has become the high-speed Internet lifeblood of our 
21st century economy, educational opportunities, health care, and 
public safety. And, as everyone now knows, and Tribal Nations have 
always known, it's worse than that.
    There are broadband success stories in Indian Country, such as the 
Middle Rio Grande and Jemez and Zia E-rate consortia in our state of 
New Mexico that obtained universal service E-rate funding to bring 
Tribally owned fiber broadband networks to the schools and libraries of 
six Pueblo communities. While these successes are to be celebrated and 
will serve as a model for future E-rate consortia, such accomplishments 
are, sadly, much too few and far between in Indian Country. As long as 
the majority of federal broadband funding goes to incumbent carriers, 
incumbent thinking, incumbent models, and incumbent apathy, the 
innovation necessary to bring broadband infrastructure to many remote 
and cyclically under-privileged and economically distressed Tribal 
lands will lay fallow.
    That is why a Tribal Broadband Fund is more necessary in 2018 than 
it was when the FCC recommended its creation in 2010. Inertia is often 
the greatest challenge and it is time to address it. There are those 
who will oppose a Tribal Broadband Fund. Some will oppose because it is 
not their idea, or they do not stand to benefit. Others will oppose 
because it is simply a change from the world in which they operate. 
Others will say it cannot be afforded, or it isn't necessary if some 
tweaks and changes are made to the current programs. Others will 
suggest yet another pilot program or commission another study. None of 
that matters, especially when compared to the enormity of the problem 
and the various dangers inherent in the lack of connectivity for these 
communities.
    What we have now simply isn't working in enough places to make a 
measureable difference. Carriers and providers will find ways to adapt 
and derive value in a new subsidization and build out program. Pilot 
programs for broadband in Indian Country have done very little compared 
to the glaring enormity of the problem. It is time to be bold. And 
anyone who knows anything about the Universal Service Fund knows that 
it has the resources to afford the amounts it will take to bring about 
change. We are talking about a level of funding that may take many 
millions, but not many billions. I know this because, in 2009, three 
very active inter-Tribal organizations then involved in developing 
responses to the National Broadband Plan docket also came together to 
develop a potential total figure for the amount that a Tribal Broadband 
Fund would need to be successful. Although the organizations chose not 
to publish that figure at that time, those same organizations and the 
same cadre of Tribal telecom policy analysts could easily re-engage on 
the effort.
    There will also be those who say that the FCC doesn't have the 
authority to create a new fund among its Universal Service Fund 
mechanisms. Although I personally doubt that, Congress can and should 
easily clarify this question before it is even offered. The onus should 
be placed upon those with the responsibility, and it should be a shared 
effort with Indian Country to develop such a fund. The FCC has some of 
the best regulatory communications attorneys, economists, and engineers 
in government, and with Congressional oversight and paired with the 
intellectual resources, research, and analysis capabilities of Indian 
Country and institutions dedicated to working with Tribal Nations to 
bring about a change in broadband deployment, I am confident that the 
development of a Tribal Broadband Fund can be well planned out, 
calibrated for operational efficiencies, properly funded, and created 
with the correct targets, abilities, and measurements for successful 
outcomes.
    This will not be too simple or too easy a task, but it will be a 
very worthy and important task. Perhaps it is most important to state 
that the need for such a Tribal Broadband Fund, and its ultimate goals, 
is completely congruent with the goals of Universal Service itself. A 
substantial fund, targeted specifically to broadband deployment on 
Tribal lands, will bring 21st century connectivity to Tribal lands and 
Native communities that, but for such funding, will never see 
meaningful connectivity.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                        to Geoffrey C. Blackwell
Streamlined Application Process
    Reading through the GAO report on partnerships I noticed many of 
the same concerns that tribal communities have are shared by those in 
rural areas more generally. Specifically, under section titled ``Grant 
Application Requirements,'' the report says quote ``Representatives 
from eight of the tribes we contacted told us that in general, the 
language included in the federal grant applications is difficult to 
understand or the administrative requirements of federal grants are 
burdensome.'' This is similar to concerns I have heard from others in 
both tribal and nontribal rural areas in Nevada.

    Question 1. Do you believe streamlining the application processes 
for broadband programs would be helpful for encouraging broadband 
buildout?
    Answer. Yes, I believe streamlining the application processes for 
broadband programs should be one important part of a comprehensive 
strategy to make broadband programs more accessible and, as a result, 
to encourage broadband deployment across Indian Country and other parts 
of rural America. In addition to streamlining application processes, I 
believe that this comprehensive strategy should be comprised of the 
following components: (1) strategic and timely review and processing of 
broadband funding applications; (2) technical assistance--before, 
during, and after broadband deployment; and (3) genuine and purposeful 
engagement and education.
    A significant data point from the past is the experience and 
outcome of the American Recovery and Reinvestment Act of 2009. The 
Notice of Funds Available application strategy of certain federal 
agencies in response to the mandates of the Stimulus Act, especially 
when paired with a ``shovel ready'' project approach, did not help 
Indian Country. Not at all. The process to deploy on Tribal lands is 
simply more complicated, thus planning and technical assistance 
processes in Indian Country often take longer. Often taking the time 
needed to genuinely train and engage to develop good deployment plans 
and business models makes all the difference. Many Tribal Nations 
either already are, or have the genuine potential to become, the 
economic mitochondria in their regions, and it is time for lawmakers 
and regulators to recognize and engage on that potential.
    Streamlining broadband funding application processes is a delicate 
balance between federal agencies' fiduciary responsibilities with 
respect to federal dollars and creation of a ``gotcha'' process for 
applicants. Often, a simple and inadvertent mistake dooms a new, 
inexperienced, or even veteran Tribal applicant to the rejection pile. 
It is often difficult for federal officials in Washington, DC to 
understand that those completing complex broadband applications 
undertake that task in addition to their regular, full-time jobs as 
Tribal planners, IT professionals, teachers, school or hospital 
administrators, or a myriad of other in-house Tribal professionals. 
While there have been incremental improvements over the years with some 
federal broadband programs, such as the Federal Communications 
Commission's (FCC) E-rate program, there is much yet to be 
accomplished.
    Strategic and timely review and processing of broadband funding 
applications is closely related to the current challenges associated 
with broadband application processes. The often extremely long and 
drawn-out application review period serves as a serious impediment to 
broadband deployment. Consider the FCC's E-rate program, for example. 
This very valuable and successful program still has serious challenges 
with timely review and approval of broadband applications for schools 
and libraries. Often, applications are not approved until well into, or 
at the end of, the program's funding year. The practical impact of this 
process is that applicants are forced to seek a waiver from the FCC or, 
in some cases, are automatically given an extra year to use the E-rate 
funding--both of which result in yet another year in which those 
schools and libraries continue to lack 21st century connectivity and 
all of its benefits.
    Compare the current experience of E-rate with that of the Stimulus 
Act when, in my opinion, things simply moved too fast to be of impact 
to areas that had the worst effects of the digital divide. Had the 
agencies involved in the stimulus programs taken a deliberate, but 
calculated, amount of time to actively engage in consultation with 
Tribal Nations and other unserved communities about what projects could 
be possible with the help of a gauged amount of technical assistance 
and coordination, I believe a great deal more government investment in 
rural and Tribal lands would have resulted. I am familiar with what it 
takes to bring broadband projects together in rural and Tribal 
communities. City economics don't often work. With the Stimulus Act, 
``demand aggregation'' was not a part of the planning--it was speed and 
impact. But the ``bang for the buck'' analysis went only so far. 
Technical assistance planning that engaged these communities to 
aggregate their core community institutions and other institutional 
users would have presented some compelling stimulus rural projects, in 
my opinion. But as it was, a majority of the actual infrastructure 
funding went to incumbents in areas where there was already a measure 
of broadband deployment.
    There are many definable reasons as to why these areas of the 
country lack service, and projects based on simple economic measures, 
like population density, or on unrealistic timing, will always lack the 
indicators of success in rural and Tribal communities. These are areas 
where most corporations would not venture based on their own business 
models, so I have consistently encouraged federal lawmakers and 
regulators to envision new models and work closely with these 
communities to determine sustainable models that engage on the 
realities of their situations and that are based on more than simple 
economic puts and takes. Many Tribal Nations, responding to the lack of 
interest from for-profit companies and other outside entities, are 
forced to face the reality of somehow having to deploy broadband 
themselves. They have to confront the reality of their own ownership 
economics and, in their environments, federal dollars are essential. 
With few exceptions, no critical infrastructure has ever come robustly 
to Indian Country without significant federal involvement, investment, 
and oversight.
    I understand that the federal government has a fiduciary 
responsibility with regard to federal dollars, but a better balance 
must be struck that helps both the process and the applicants.
Tribal Expertise
    In the GAO report on partnerships one of the concerns mentioned is 
that tribes often do not have some of the technical expertise necessary 
to access some of the funding that is available. This is also a concern 
that stakeholders have raised with me as one of the major problems for 
getting some of this funding to where it is truly needed. The GAO notes 
that the Rural Utilities Services has provided some funding for 
technical assistance for applicants, funding that enabled RUS to 
address some of the barriers tribes face. However, according to the 
report, RUS has not adequately taken steps to identify or address the 
barriers tribes face when applying for RUS grant funding, including 
lack of expertise.

    Question 2. What can the federal government do better to bring some 
technical help to tribes?
    Answer. Providing specific and dedicated technical assistance 
funding for outside expert entities to work with Tribal Nations is a 
very important and productive step that the federal government can take 
to bring technical help to Tribes in the broadband arena. And this 
funding must cover all facets of broadband projects--before, during, 
and after broadband deployment. Such a mechanism would help the 
government ensure that federal dollars are being invested and utilized 
wisely and for the long-term benefit of Tribal communities.
    While technical assistance provided directly by federal government 
agencies is always welcome, it cannot substitute for on the ground, 
side-by-side assistance and support. Largely located in Washington, DC, 
far from Tribal lands both geographically and culturally, government 
staffers generally do not live daily with the remoteness and the 
terrain issues that define many Tribal lands. This is not a criticism, 
but it is a fact. Providing Tribes with the necessary funding to choose 
those from whom they want to receive technical assistance will lead to 
broadband deployment that will benefit generations to come.

    Question 3. Are federal workshops helpful?
    Answer. Yes, federal workshops can be helpful, if planned and 
conducted properly and in partnership with Tribal Nations and 
communities. When I served as Chief of the FCC's Office of Native 
Affairs and Policy (ONAP), I overhauled the Commission's Tribal 
training program. In 2012, my team and I identified and implemented a 
paradigm that incorporated the following components: (1) consultation 
with Tribal Nations; (2) responsiveness to the needs and requests of 
Indian Country; (3) a targeted regional approach; (4) smaller but more 
engaged and vested audiences; (5) a far more interactive approach; and 
(6) a Native Learning Lab with laptop computers pre-loaded with 
training modules and dedicated staff members to answer individual 
questions and/or assist with regional issues. Perhaps most importantly, 
our efforts to consult with Tribal Nations to elicit their input and 
responses to our regulatory approaches were predicated on a measured 
amount of training and technical education. Telecommunications policy 
and regulations are complex areas, but are not insurmountable areas to 
understand with targeted and interactive training and education 
efforts. This approach was transformative to the FCC's policies and 
progress on Tribal government matters, and my staff and our team from 
across the FCC received accolades from remote corners of Indian 
Country.
    Another key element to any federal workshop or Tribal consultation 
is the presence of actual decision makers on all sides. I found early 
on in my federal work that, when senior decision makers and policy 
experts from across the FCC actually stepped foot into Tribal workshops 
in Indian Country, it not only attracted the presence of elected and 
appointed senior Tribal officials, but it also engaged them in a 
meaningful way that a routine training did not. It built relationships 
and trust, and it informed many an effort first hand if the senior 
decision maker was present. My eyes were opened many times in such 
conversations, and I owe a debt of gratitude to many senior officials 
from both sides of those tables for what I learned from them in those 
interactions. It is imperative that Tribal workshops involve decision 
makers, not only trainers or outreach staffers.
    I also cannot emphasize enough the importance of an interactive 
approach to any federal workshop. While presentation of materials and 
information is important, it is not enough. Quite the contrary--a 
shared federal/Tribal experience is necessary. The most popular segment 
of the FCC's consultation and training workshops during my tenure as 
Chief of ONAP was almost unanimously a panel comprised of Tribal 
leaders, IT directors, and other IT professionals. This panel discussed 
and debated broadband issues unique to their communities and engaged 
the audience in the discussion--which was educational and informative 
to both the conference participants and the FCC staff members in 
attendance.
    Workshops, and the materials and issues presented, also have to 
remain fresh to remain relevant. Federal presenters must imagine 
themselves as participants in the audience and ask, ``Why is what I'm 
hearing relevant to the challenges at home?'' There are few things 
worse than hearing the same material, presented in the same way, time 
and time again. We also learned on numerous occasions that workshops 
coordinated among several federal agencies with broadband programs--
such as the FCC, the Department of Agriculture, and the Department of 
Commerce--can make very effective use of the time and money of both 
Tribal Nations and the federal government.
Telemedicine
    In Nevada, we've recently completed the Nevada Broadband 
Telemedicine Initiative. It has been a great example of a public-
private partnership, including Switch, a Nevada tech company and the 
Nevada Hospital Association, as well as local and federal cooperation 
to improve the rural quality of life in the state. For example, when 
Desert View Hospital in Pahrump recently celebrated their connectivity 
they talked about how they are able to triage mental health issues via 
telemedicine without the necessary costs of transport to Las Vegas, as 
an example. I am very excited about this and how these applications can 
work for our native communities in Nevada, many of whom live hundreds 
of miles from the nearest population center.

    Question 4. Is this any unique challenges for rural tribal 
communities accessing telemedicine that may differ from other remote 
places?
    Answer. Yes, there are unique challenges facing Tribal communities. 
For example, access to broadband is much lower in Tribal rural 
communities than in non-Tribal rural communities. Recognizing the GAO's 
findings about the seriously inferior quality of the FCC's data, even 
what appears in the most recent reports is starkly severe. According to 
the FCC's most recent data, contained in its 2018 Broadband Deployment 
Report, 59 percent of residents of rural Tribal lands lack access to 25 
Mpbs downstream/3 Mpbs upstream (25/3) broadband service. This dire 
statistic compares to another unacceptable statistic--30 percent of 
residents of non-Tribal rural areas lack access to 25/3 service. Again, 
according to the GAO study, this is an overstatement. It is a unique 
frustration that the only data we have is inaccurate. But nevertheless, 
it is clear that broadband deployment in rural parts of Indian Country 
is far lower than other parts of the nation, which presents a serious 
impediment to, among other things, accessing telemedicine.
    In addition, the definition of ``rural area'' for purposes of 
certain federal broadband funding programs exacerbates telemedicine 
challenges in Indian Country. For example, the FCC's Rural Health Care 
universal service subsidy program defines ``rural area'' by using U.S. 
Census Bureau definitions. While perhaps making sense from Washington, 
DC, the practical reality in Indian Country is that many areas not 
meeting the FCC's definition of ``rural area'' are what anyone setting 
foot in these areas would determine to be rural. For example, there are 
several Pueblo communities in New Mexico that, while located between 
Albuquerque and Santa Fe, are about as rural as you can get. Yet, these 
Pueblos are deemed non-rural for purposes of the Rural Health Care 
program. Terminology that is not in line with reality can itself be 
termed a failure of government. The practical effect of failing to meet 
the FCC's definition of ``rural area'' means that many Tribal 
communities are precluded from the very subsidies that would facilitate 
access to telemedicine. A more reasonable definition, rooted in the 
reality of rural Tribal communities and rural America in general, would 
correct this ongoing error.
Rural Spectrum
    In Nevada, we have two main metropolitan areas and the rest of the 
population lives in small towns and rural areas often separated by 
hundreds of miles. Tribal communities in these areas are not only 
separated by distance, but also by mountainous and remote terrain. 
Another challenge is that this land is almost always owned by the 
federal government, so we have a very unique situation in Nevada as we 
try to build out broadband to some of the rural and tribal communities 
that live in these areas. One of the issues that has arisen is that 
wireless spectrum works differently in mountainous areas than it does 
on flat land or in the city.

    Question 5. What challenges that arise with getting the right 
spectrum to bring fixed wireless to these areas?
    Answer. This is an area where I have chosen to spend a focused 
amount of time during my career, both as a federal regulator and a 
Tribal representative, always as a broadband policy advocate. Spectrum 
licensing and the access to spectrum is a key to unlocking the immense 
wireless divide that many communities in rural and Tribal regions 
experience. There are numerous challenges with providing access to 
spectrum and wireless coverage to Tribal and rural communities across 
the country, including:

  <bullet> The lack of wireless services is where the biggest digital 
        divide is occurring. The problem is not so much a lack of 
        spectrum as it is a lack of access to spectrum.

  <bullet> Large amounts of spectrum are warehoused and not built out 
        by those who hold the spectrum licenses. Many Reservations have 
        dozens of licensees holding spectrum over their lands but those 
        licensees either decline to provide service or decline to 
        sublease the spectrum to those who would build out.

  <bullet> Potential sublease negotiations and discussions often fail 
        before they even get a chance to begin. The FCC's secondary 
        markets regulations are spongy. They lack due process and 
        procedures that make it possible for parties, including Tribal 
        Nations and smaller, more market sensitive carriers, to get 
        genuine engagement from the license holders. These regulations 
        do not include concrete guidelines or methods that would ensure 
        actual subleases, through partitioning or disaggregation of 
        spectrum, seeing the negotiation table, much less actual build 
        out. Moreover, the FCC has not acted on proposals contained in 
        its 2011 Spectrum Over Tribal Lands Notice of Proposed 
        Rulemaking (``Spectrum Over Tribal Lands NPRM'') that would 
        augment Tribes' ability to sub-lease spectrum.

  <bullet> The FCC regulatory notions of build-out to rural and Tribal 
        lands should be overhauled and updated. Whereas wireless 
        services were seen 25 years ago as a luxury and never a 
        complete alternative option to wireline services, now wireless 
        services are the primary method by which mobile citizens in 
        rural and Tribal communities stay in touch.

  <bullet> The licensing areas themselves need to be overhauled to 
        attract and incentivize new entrants and new, more small market 
        based approaches. Rural and Tribal community economics are not 
        the economics of pure population density. More rural and Tribal 
        community oriented models that engage communities at many 
        levels, including their core community institutions, have a 
        chance to succeed-if provided the potential that spectrum 
        licensing holds. A license is a bankable asset that can bring 
        the ability to attract investment.

  <bullet> It is time to start looking to new entrants and new 
        incentive strategies involving spectrum because it is clear 
        that the larger national wireless companies will not build out 
        to Tribal lands and rural communities. The FCC simply cannot 
        incentivize carriers to go where, pursuant to their own 
        business models, there is no economic incentive to serve. The 
        FCC has tried to pay the wireless industries to build our for 
        over 18 years, to no significant avail. Since 2000, for 
        example, the Tribal Lands Bidding Credits program has not met 
        with success. The offer was simple--work with a Tribe and build 
        out to its lands to a particular level and the FCC will provide 
        back to you the value of what you have spent in buildout in a 
        credit for spectrum in the FCC's highest-bidder wins spectrum 
        auctions. It was a groundbreaking approach in 2000, but it has 
        been a failure at bringing any measurable buildout to Tribal 
        lands. Why? Because, while the price of spectrum has gone up so 
        far through any imaginable roof in the FCC's Auctions (see the 
        results of the FCC's Advanced Wireless Spectrum 3 auction), 
        Indian Country with all its challenges and relatively 
        impoverished low population density continues to remain an 
        unattractive area for the major wireless corporations. This is 
        especially true with such significant federal regulation. It is 
        time to recognize the need for new license based incentives.

  <bullet> As a result, Tribes have been forced to look at ownership 
        economics, making the difficult choice of providing service 
        themselves and going into debt because no one else will provide 
        service.

    The solution to this enduring challenge and injustice is to make 
spectrum available and accessible to those who will use it on Tribal 
lands--smaller market sensitive companies, including most importantly, 
Tribal Nations themselves. Giving Tribal Nations spectrum, and 
empowering the opportunities of smaller market sensitive business 
models, is a necessary next step.
    The FCC is rightly proud of its elaborate and largely successful 
wireless licensing framework. I shared in that pride for a significant 
portion of my career. But Indian Country and rural America were largely 
an afterthought in that framework. And when it comes to the effects of 
regulatory mechanisms, that framework has not led to better build out 
in Indian Country. In many communities, it is beyond laughable as to 
how bad the service is--it is actually dangerous. It is time to do 
something new and different.
    In 2011, over 7 years ago, the FCC unanimously launched the 
Spectrum Over Tribal Lands NPRM. The FCC has yet to take any action on 
this NPRM but, among many proposals, there are multiple that are still 
quite relevant and viable. Among these, the FCC proposed a Tribal 
priority (similar in concept to the priority in has had in effect for 
the same time period for full-power commercial radio licenses) that 
would be made available only for unserved or underserved Tribal lands 
for qualifying Tribal entities, designated as such by the relevant 
Tribal government. For such Tribal lands within a geographic area 
covered by an unassigned license, the FCC sought comment on a proposal 
that a Tribal priority would permit a qualifying Tribal entity to 
proceed in licensing without proceeding to competitive bidding. This 
would greatly reduce the cost of initiating and providing service on 
Tribal lands. The rationale for this approach is the same for both 
full-power commercial radio licenses and wireless spectrum licenses 
because, in both situations, Tribes have a governmental responsibility 
for, among other things, public safety. Consider the wild fires in 
California and other western states, and the continuing critical and 
unmet need for interoperable communications across Tribal lands and 
rural America becomes even more dire.
    The inability to access spectrum held under existing spectrum 
licenses via secondary markets negotiations processes, as discussed 
above, also continues to plague Tribal Nations. In its 2011 Spectrum 
Over Tribal Lands NPRM, the FCC sought comment on a Tribal proposal for 
the creation of a formal negotiation process through which a Tribe that 
had been refused good faith negotiations regarding a secondary markets 
transaction within a wireless licensee's geographic area of license 
could require the licensee to enter into such negotiations. This 
approach would prevent Tribes from being foreclosed from access to 
existing, unused spectrum over their lands. If the FCC will not take 
the next steps, any steps, it is time for Congress to act to shake 
loose new thinking, or shake loose new action on these still highly 
viable options.
    Congress and the FCC hold in their hands the solution to many of 
these spectrum challenges facing Tribal lands and rural America in the 
form of an open rulemaking proceeding. For all of the reasons discussed 
above, Congress should direct the FCC to take action on its 2011 
Spectrum Over Tribal Lands NPRM to effectuate the Tribal Priority and 
the new secondary markets mechanisms.

    Question 6. What challenges arise with getting infrastructure built 
on federal lands?
    Answer. This is a difficult question to answer. Or rather, the 
answer could be so long and complex so as to recall memories of an old 
encyclopedia. As Tribal lands are federal lands, a large portion of my 
other answers are relevant here. However, in simple terms, there are 
two major areas in my experience that come immediately to mind among 
the many challenges. The first is having effective and reliable 
processes for the use of the federal lands, such as leaseholds, rights-
of way, easements, and other such methods of legally deploying 
communications infrastructures. It goes without saying that these legal 
property law processes should be respected and followed, but it is 
important to note here that I have either witnessed or learned about 
the presence of communications infrastructure on dozens of Indian 
reservations that lack the proper federal authorization. It was 
saddening to see dark fiber on a reservation that was never known about 
or lighted because it was laid without the proper right-of-way. These 
processes must be prioritized for communications infrastructure. 
Federal land management agencies must engage a new element of their 
personas and recognize they have a responsibility to play a role in the 
deployment of broadband nationwide. Leaseholds and rights-of-way must 
be properly valued. Federal lands should be appropriately and properly 
made available to deployment, rather than stand as obstacles.
    A related major area that comes immediately to mind is the 
coordination of efforts when federal lands are used. It could be a very 
good idea to re-convene federal interagency task force or working group 
efforts, but these should involve practice level experts who will 
contribute, not figureheads. Collocations of wireless infrastructures 
on federal towers should be made available, if not actually marketed. 
When trenches are dug for placement of infrastructure into the ground, 
the famous ``dig once'' ideology should be recognized and other 
deployments should be included as appropriate, as possible. ``Dig 
once'' is a simple concept, but can be challenging in practice.
    Environmental and cultural preservation regulation as they apply to 
communications infrastructures is an area where I have spent a large 
amount of time. This is a complex and often-controversial arena. First, 
I believe one cannot turn one's back on the historic and cultural 
heritage of our communities. Reviews should be budgeted and accounted 
for in planning and programmatic funding. Secondly, I think the 
controversies should be placed in the hands of the experts, with the 
mandate to find middle ground. In the face of complexity and challenges 
to the environmental and cultural preservation review processes, there 
is an alarming trend to juxtapose those requirements against the goals 
of deployment and development.
    In my opinion, this is a mistake. These are areas of governmental 
priorities that should not be balanced against each other. Instead, as 
much as possible, they should be harmonized. Connectivity should not 
come at the price of environmental and cultural preservation impacts. 
And while there are places that are simply too sacred to see a tower 
placed in their midst, or fiber trenched through, the cultural 
preservation process should be cognizant of the need and place that 
connectivity occupies in society. One must acknowledge a history of 
impact and loss of cultural resources and sites of religious and 
cultural significance in Indian Country. If Tribal preservation 
officials are leery of industries, it is not for no reason at all. 
These are areas where lawmakers and regulators should engage with 
experts, avoid the hyperbole in arguments, and avoid simply making 
rough policy cuts based on the outlier cases or the radical opposing 
viewpoints held by certain of those in industry and the preservation 
community. Lawmakers and regulators should seek to find the common 
ground, uphold the law, call out parties that offend or take advantage 
of the system, and reward those who participate or coordinate in the 
deployment of infrastructure that maximizes the potential for 
deployment and minimizes the potential for cultural preservation 
impacts.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Patrick Webre
Tribal E-Rate Timeline
    During the hearing, I mentioned that two E-Rate specific 
recommendations from the 2016 GAO Report on tribal broadband have not 
been addressed. When I asked about the progress on addressing those two 
recommendations, you replied that the FCC implemented the first 
recommendation; the program forms now contain guidance on what 
qualifies as ``tribal.'' You also stated the USAC's tribal liaison 
encourages tribal applicants to identify themselves as tribal so it can 
track who is participating in the E-Rate Program, leading to more 
accurate data.
    Question 1. What else has the FCC done to ensure further progress 
in addressing these two recommendations from the 2016 GAO report on 
tribal broadband?
    Answer. The Commission implemented the first recommendation from 
the 2016 GAO Report (GAO-16-222) (i.e., to provide guidance on what 
qualifies as ``Tribal'' on E-Rate program forms) in funding year 2017. 
Specifically, the E-Rate program forms now include guidance about when 
a school or library should identify itself as ``Tribal,'' and the 
Universal Service Administrative Company (USAC) has greatly enhanced 
its method for collecting this information by improving the Tribal 
``check box'' in its system.
    Regarding the second recommendation, the FCC has directed USAC to 
improve its IT systems for purposes of data collection and reporting 
about the E-Rate program, and USAC has made substantial progress in 
this area. For example, in November 2017, USAC rolled out its OpenData 
platform, which makes E-Rate program data-including data on Tribal 
schools and libraries-available to the public. It's available at 
https://opendata.usac.org/. We anticipate this data will be more 
informative as schools and libraries follow the new guidance on how 
they can identify themselves as ``Tribal,'' and we expect this data 
will help the Commission assess its progress in ensuring that all 
Tribal schools and libraries have affordable access to broadband.

    Question 2. When will we see accurate data from the E-Rate program 
in tribal lands?
    Answer. The Commission remains committed to ensuring that all 
Tribal schools and libraries have affordable access to modern broadband 
technologies. To ensure that we have accurate data on all Tribal 
applicants within the E-Rate program, USAC's Tribal liaison encourages 
Tribal applicants to check the ``Tribal'' box on E-Rate applications so 
that USAC can better understand who is participating in the E-Rate 
program, provide relevant Tribal outreach and training, and assess the 
effectiveness of those outreach and training efforts. Educational 
efforts have included conducting monthly conference calls with Tribal 
applicants and multiple Tribal-specific training sessions on an annual 
basis; coordinating with Tribal organizations such as the Bureau of 
Indian Education, the Association of Tribal Archives, Libraries and 
Museums, the National Indian Education Association, the National 
Congress of American Indians, Native Public Media, and the Alaska 
Tribal Administrators Association; maintaining and updating a Tribal-
specific reference webpage on USAC's website; and distributing 
newsletters tailored to the needs of Tribal applicants. To this end, 
USAC's Tribal liaison, in coordination with the Commission's Office of 
Native Affairs and Policy and Wireline Competition Bureau, has made 
significant strides in engaging Tribal governments and communities, 
explaining the relevance of the E-Rate program to eligible Tribal 
schools and libraries, and helping eligible Tribal schools and 
libraries successfully participate in the E-Rate program.
Challenge Process for Form 477 Data Collection
    During the hearing, I mentioned the process for challenging data 
collected using Form 477. When Tribes challenge the data, Tribes endure 
a costly appeals process and often are unsuccessful. Tribes also report 
that this process is skewed in that the Industry controls the reporting 
of data.
    Question 3. How many Tribes have appealed the data collected from 
Form 477?
    Answer. The Commission uses FCC Form 477 to collect voice and 
broadband data from all facilities-based providers of mobile and fixed 
telecommunication providers. This data is used to produce reports of 
the state of voice and broadband coverage in the United States, as well 
as appropriately inform FCC policy decisions. As recognized in the 
current Form 477 rulemaking (FCC 17-103), the FCC currently collects 
information at the census block level, and the Commission is currently 
considering the best ways to improve the level of detail the Commission 
collects while appropriately balancing the costs and burdens on the 
companies submitting the information.
    The semi-annual Form 477 collection currently does not have a 
formal challenge process as the collection is designed for providers of 
voice and broadband service to report where they can reasonably provide 
service upon a request from a customer. This data is then used to 
produce the various maps and reports the Commission provides on the 
state of voice and broadband service in the United States. When this 
data is used to inform the Commission's funding and policy decisions, 
the Commission appropriately considers the limitations of the Form 477 
data. This has resulted in multiple formal challenge processes for 
Commission funding.
    For example, in both the A-CAM (DA 16-842) and CAF II (DA 15-383) 
proceedings the Commission instituted a formal challenge process to the 
areas determined eligible by the models and Form 477 data. No Tribes or 
Tribal carriers participated in these challenge processes.
    Although the Mobility Fund Phase II auction does not rely on Form 
477 data (but instead separately submitted, standardized mobile 
broadband data), the Commission opened a window for challenges that 
lasted through November 26, 2018. Sixteen Tribal governments 
participated in the MF II challenge process (DA 18-1225).
    In the Commission's April 2018 Tribal Opex Order, the Commission 
gave relief to carriers serving Tribal lands, but limited that relief 
to carriers that had not yet deployed 10/1 Mbps service to 90 percent 
or more of the housing units on the Tribal lands in its study area. 
Mescalero Apache Telecom Inc. has filed a petition challenging the Form 
477 used to find that Mescalero Apache had more the 90 percent 
deployment.
    Question 4. How many Tribes were successful?
    Answer. With respect to MF II challenge process, on December 7, 
2018, Chairman Pai announced that the FCC has launched an investigation 
into whether one or more major carriers violated the MF-II reverse 
auction's mapping rules and submitted incorrect coverage maps. The 
Commission has suspended the next step of the challenge process--the 
opening of a response window--pending the conclusion of this 
investigation.
    With respect to the petition filed by Mescalero Apache Telecom 
Inc., on December 20, 2018, the Commission adopted an order granting 
relief to the carrier.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Patrick Webre
Streamlined Applications Process
    Reading through the GAO report on partnerships I noticed many of 
the same concerns that tribal communities have are shared by those in 
rural areas more generally. Specifically, under section titled ``Grant 
Application Requirements,'' the report says quote ``Representatives 
from eight of the tribes we contacted told us that in general, the 
language included in the federal grant applications is difficult to 
understand or the administrative requirements of federal grants are 
burdensome.'' This is similar to concerns I have heard from others in 
both tribal and nontribal rural areas in Nevada.
    Question 1. Do you believe streamlining the applications processes 
for broadband programs would be helpful for encouraging broadband 
buildout?
    Answer. Yes. In all of the Commission's rulemakings devoted to 
broadband buildout, the Commission focuses on how to best reduce 
regulatory burdens while ensuring consumer protections.
RUS and E-Rate
    Looking at the recent GAO Report on partnerships on tribal lands, 
there is a focus on ways RUS could help tribes obtain funding to expand 
broadband deployment on their lands--including through RUS's grant 
program. I understand that there are 60,000 mostly rural K-12 Native 
students who attend federally-supported schools that do not have the 
broadband infrastructure required for digital learning in the 
classroom.

    Question 2. Are any of you aware if there are ways that RUS grant 
programs could be leveraged to provide the matching funds for the FCC's 
E-Rate program in order to connect these students?
    Answer. Yes. In the E-Rate program, the Commission will match, on a 
dollar-per-dollar basis, up to an additional 10 percent of funds for 
high-speed connection construction, so long as the connection meets the 
Commission's connectivity targets of at least 100 Mbps per 1,000 
students and staff (users) in the short term and 1 Gbps Internet access 
per 1,000 users in the longer term as set forth in the 2014 First E-
Rate Order (FCC 14-99). Thus, if an E-Rate eligible Tribal school 
received RUS grant funding to construct a high-speed broadband 
connection, the Commission would provide additional funding to match, 
on a dollar-per-dollar basis, up to 10 percent of the high-speed 
broadband connection construction costs, so long as the project 
provided broadband that meets the Commission's connectivity targets.
Rural Spectrum
    In Nevada we have two main metropolitan areas and the rest of the 
population lives in small towns and rural areas often separated by 
hundreds of miles. Tribal communities in these areas are not only 
separated by distance but also mountainous and remote terrain. Another 
challenge is that this land is almost always owned by the federal 
government, so we have a very unique situation in Nevada as we try to 
build out broadband to some of the rural and tribal communities that 
live in these areas. One of the issues that has arisen is that wireless 
spectrum works differently in mountainous areas than it does on flat 
land or in a city.

    Question 3. What challenges arise with getting the right spectrum 
to bring fixed wireless to these areas?
    Answer. The Commission has worked diligently to make available 
additional spectrum for use in rural and tribal areas to reduce the 
cost of providing service. For example, through the broadcast incentive 
auction, we have repurposed 84 MHz of spectrum from the broadcast TV 
band to be used for advanced wireless use nationwide. The Commission 
also recently started an auction of 1.55 gigahertz of spectrum in the 
24 and 28 GHz bands that will be essential to 5G deployment and other 
advanced services, and is working to facilitate an auction of the Upper 
37, 39, and 47 GHz bands to further support these types of services. 
Furthermore, the Commission sought comment on opening a new local 
priority filing window for rural Tribal Nations in the 2.5 GHz spectrum 
band. Such a window would allow rural Tribal Nations an opportunity to 
access 2.5 GHz spectrum to address the educational and communications 
needs of their communities and residents on rural Tribal lands, 
including the deployment of advanced wireless services in areas that 
currently lack such service.

    Question 4. What challenges arise with getting infrastructure built 
on federal lands?
    Answer. The FCC generally has no direct role in land management 
agencies' decisions concerning infrastructure deployment on federal 
lands, but we have taken important steps to support government-wide 
efforts to reduce barriers to infrastructure investment and deployment. 
The FCC participated in an interagency working group formed in 2016 to 
streamline federal agencies' review, pursuant to the National Historic 
Preservation Act, of the effects of proposed communications deployments 
on historic properties. That working group's efforts culminated on May 
24, 2017, with the Advisory Committee on Historic Preservation's 
issuance of a Program Comment that authorizes federal agencies to 
accelerate their processes for identifying and considering the effects 
of communications infrastructure projects on historic properties, and 
to exempt certain undertakings from historic-preservation review under 
specified conditions. And on January 24, 2018, the Broadband Deployment 
Advisory Committee (BDAC), voted to adopt the report of its Working 
Group on Streamlining Federal Siting, which recommended that all 
federal land-management agencies be directed to harmonize their 
application forms, fees, and procedures for environmental and historic 
preservation review, communicate more clearly with applicants during 
the review process, and prioritize their consideration of broadband 
siting applications such that all review be completed within 60 days.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Mark Goldstein
Tribal E-Rate Timeline
    During the hearing, I mentioned that two E-Rate specific 
recommendations from the 2016 GAO Report on tribal broadband have not 
been addressed. When I asked about the progress on addressing those two 
recommendations, you replied that you will get back to me on this and 
that the GAO does follow up on an annual basis.
    Question 1. Is GAO aware of any FCC progress in addressing these 
two recommendations from the 2016 GAO report on tribal broadband?
    Answer. The two open recommendations are from GAO-16-222 and state 
that FCC should (1) improve the reliability of FCC data related to 
institutions that receive E-Rate funding by defining ``tribal'' on the 
program application, and (2) develop performance goals and measures to 
track progress on achieving its strategic objective of ensuring that 
all tribal schools and libraries have affordable access to modern 
broadband technologies. On October 24, 2018, we requested an update 
from FCC on the status of its efforts to implement these 
recommendations. An FCC official told us that our request was being 
reviewed by subject matter experts; however, FCC was not able to 
provide us with the requested information in time to be included in 
this response before the hearing record is closed. We will continue to 
actively work with FCC on the steps it is taking to implement these 
recommendations and will update the status on our website as 
appropriate.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Mark Goldstein
Streamlined Application Process
    Reading through the GAO report on partnerships I noticed many of 
the same concerns that tribal communities have are shared by those in 
rural areas more generally. Specifically, under section titled ``Grant 
Application Requirements,'' the report says quote ``Representatives 
from eight of the tribes we contacted told us that in general, the 
language included in the federal grant applications is difficult to 
understand or the administrative requirements of federal grants are 
burdensome.'' This is similar to concerns I have heard from others in 
both tribal and nontribal rural areas in Nevada.

    Question 1. Do you believe streamlining the application processes 
for broadband programs would be helpful for encouraging broadband 
buildout?
    Answer. While we have not conducted any recent work necessary to 
answer this question, our work has shown that completing federal grant 
applications to obtain funding for broadband deployment can be 
challenging for tribes. As we stated in our September 2018 report, 
tribal officials we interviewed told us the grant application process 
for broadband infrastructure may be resource-intensive and time-
sensitive, thus putting an administrative and financial burden on 
tribes. For example, some of the tribal officials we contacted cited 
difficulties preparing requirement application materials between the 
time a grant announcement was made and the submission deadline. 
Further, tribal officials we contacted from New Mexico and Oklahoma 
told us the constrained timeframes prevented them from effectively 
preparing a comprehensive application package.
Tribal Expertise
    In the GAO report on partnerships one of the concerns mentioned is 
that tribes often do not have some of the technical expertise necessary 
to access some of the funding that is available. This is also a concern 
that stakeholders have raised with me as one of the major problems for 
getting some of this funding to where it is truly needed. The GAO notes 
that the Rural Utilities Services has provided some funding for 
technical assistance for applicants, funding that enabled RUS to 
address some of the barriers tribes face. However, according to the 
report, RUS has not adequately taken steps to identify or address the 
barriers tribes face when applying for RUS grant funding, including 
lack of expertise.

    Question 2. What can the federal government do better to bring some 
technical help to tribes?
    Answer. Dedicated funding and technical assistance grants have 
helped some tribes acquire the technical expertise they need to access 
broadband infrastructure funding. For example, RUS previously 
administered the Broadband Initiatives Program (BIP), authorized by the 
Recovery Act in 2009 \1\ to expand high-speed Internet service in 
unserved areas. In addition to providing funding to deploy broadband 
infrastructure, BIP included funds specifically for technical 
assistance. In our September 2018 report, we noted that 12 technical 
assistance grants went to tribal communities to develop regional plans 
to provide broadband service in rural areas that remain critically 
unserved. During the course of our review, RUS officials told us that 
RUS would need dedicated funding, such as that authorized by BIP, to 
provide technical assistance for tribes. The RUS officials believe that 
such technical assistance would help tribes overcome some of the 
barriers that they face in applying for RUS grants.
---------------------------------------------------------------------------
    \1\ Pub. L. No. 111-5, 123 Stat. 115, 118-119 (2009).

    Question 3. Are federal workshops helpful?
    Answer. During the course of our review, RUS officials told us they 
have held a number of external training and outreach events, such as 
workshops and seminars, with tribes over the past 5 years to provide 
information about RUS's broadband programs. For example, in April 2018, 
before the 2018 Community Connect grant's application deadline, RUS 
hosted a webinar on various requirements for grant applications. RUS 
officials told us that RUS's outreach efforts generally focus on 
specific programs and instructing potential applicants on program 
requirements and how to complete application packages. Although GAO did 
not conduct a formal review of the effectiveness of these workshops and 
outreach events, RUS officials told us they strive to make outreach 
efforts interactive so that there is two-way communication between the 
agency and tribes. In addition to workshops, RUS officials said they 
reach tribes through direct contact, telephone calls, emails, and joint 
outreach with FCC.

                                  <all>
</pre></body></html>
